<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2009 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-126]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT 

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                 STRATEGIC FORCES SUBCOMMITTEE HEARING

                                   ON

             BUDGET REQUEST AND STATUS OF SPACE ACTIVITIES

                               __________

                              HEARING HELD

                             MARCH 5, 2008

                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-669 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




























                     STRATEGIC FORCES SUBCOMMITTEE

                      ELLEN O. TAUSCHER, Chairman
JOHN SPRATT, South Carolina          TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               TRENT FRANKS, Arizona
RICK LARSEN, Washington              MAC THORNBERRY, Texas
JIM COOPER, Tennessee                MICHAEL TURNER, Ohio
DAVID LOEBSACK, Iowa                 MIKE ROGERS, Alabama
NIKI TSONGAS, Massachusetts
                Bob DeGrasse, Professional Staff Member
                 Rudy Barnes, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant

































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, March 5, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request and Status of Space 
  Activities.....................................................     1

Appendix:

Wednesday, March 5, 2008.........................................    17
                              ----------                              

                        WEDNESDAY, MARCH 5, 2008
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST AND 
                       STATUS OF SPACE ACTIVITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Ranking 
  Member, Strategic Forces Subcommittee..........................     4
Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1

                               WITNESSES

Kehler, Gen. C. Robert, USAF, Commander, Air Force Space Command, 
  U.S. Air Force.................................................     5
Large, Hon. Scott, Director, National Reconnaissance Office......     8
Payton, Hon. Gary E., Deputy Under Secretary of the Air Force for 
  Space Programs.................................................     7

                                APPENDIX

Prepared Statements:

    Kehler, Gen. C. Robert.......................................    21
    Large, Hon. Scott............................................    61
    Payton, Hon. Gary E..........................................    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Everett..................................................    94
    Ms. Tauscher.................................................    79
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST AND 
                       STATUS OF SPACE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                          Washington, DC, Wednesday, March 5, 2008.
    The subcommittee met, pursuant to call, at 3:02 p.m., in 
room 2212, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. The hearing will come to order.
    The Strategic Forces Subcommittee meets this afternoon to 
receive testimony on national security space activities from 
General Robert Kehler, the Commander of Air Force Space 
Command; Mr. Gary Payton, the Deputy Under Secretary of the Air 
Force for Space Programs; and Mr. Scott Large, the Director of 
the National Reconnaissance Office (NRO).
    I want to thank each one of our very distinguished 
witnesses for being here today.
    This hearing is an important opportunity for the 
subcommittee to consider the posture of our Nation's space 
assets, their importance to our warfighters, and to reflect on 
the fragility of our space systems.
    I want to warn everybody this is a long statement--not warn 
them, because it is not an important statement--but we are at a 
time now when we believe on the subcommittee, and in the 
Congress generally, that space is one of the most important 
issues that we need to be looking at, and understanding, and 
have oversight for.
    I want to congratulate my colleague, Mr. Everett, my 
Ranking Member, for all of his work over the many years on 
space; and to make it clear that one of the reasons why this is 
going to be a long statement is that we really want to 
highlight the work that is done, not only by our fabulous men 
and women in uniform, but by the amazing cadre of civilians 
that have done this work quietly, without a lot of fanfare, 
without a lot of attention, for decades.
    So, as I was saying, we want to reflect on the fragility of 
our space systems. This fragility was highlighted recently by 
the failure of an experimental NRO satellite early in its 
mission, and by the President's decision to destroy that 
satellite before it reentered the atmosphere with 1,000 pounds 
of frozen hydrazine fuel in a titanium tank.
    By successfully intercepting the failed satellite about 130 
miles above the Earth's surface--just above the upper edge of 
the atmosphere--our Nation took responsibility for eliminating 
a risk to human populations that we, ourselves created. At the 
same time, the United States executed the intercept consistent 
with international norms discouraging creation of dangerous 
space debris; the vast majority of debris created by the 
intercept has already reentered the Earth's atmosphere, or will 
reenter in the coming days and weeks, and disintegrate.
    I also applaud the open and transparent manner in which our 
military leadership has explained and executed this mission. I 
know that each of our witnesses today played a key role in this 
effort, and each of you, as well as your whole team, should be 
commended for a job very, very well done.
    The recent U.S. intercept stands in sharp contrast to the 
secretive anti-satellite (ASAT) test that the Chinese performed 
a year ago, last January. Without alerting other spacefaring 
nations, as required by international norms, they destroyed one 
of their own aging weather satellites over 500 miles above the 
Earth's surface, creating a debris field with thousands of 
lethal objects that will remain in low earth orbit (LEO) and 
threaten satellites, the Space Shuttle, and the International 
Space Station for decades to come.
    As a Nation critically dependent on space, I would like to 
ask our witnesses today to address the following question 
concerning our space posture: If our space assets are attacked, 
do we have the appropriate contingency plans for closing the 
intelligence, surveillance, and reconnaissance (ISR) gaps that 
our warfighters would experience?
    Last year, testifying as commander of United States 
Strategic Command (USSTRATCOM), General James Cartwright, who 
is currently Vice Chairman of the Joint Chiefs of Staff (JCS), 
commented that not every problem in space requires a solution 
in space. He went on to express concern about a possible arms 
race in space.
    Last week, we received testimony from Assistant Secretary 
of Defense Michael Vickers who stated, ``DOD seeks to promote 
compliance with existing legal regimes, acceptance of 
international debris mitigation guidelines, and development of 
additional voluntary guidelines for safe and responsible space 
operations.''
    In this context, I would also like to hear what each of our 
witnesses thinks about the merits and drawbacks of establishing 
additional international rules of the road to govern operations 
in space.
    Let me be clear: I want to make sure that my subcommittee, 
as well as the Department of Defense (DOD), is doing everything 
we can to ensure that our warfighters retain the advantage of 
space-based systems and that this advantage is not degraded by 
the Chinese test or any future attacks.
    But we must be prepared for more than just the possibility 
of a direct ascent ASAT. Future attacks may come from a ground-
based laser or electronic jammers. An enemy might directly 
attack the ground-based components used by satellites, or an 
adversary may use cyberspace to attack vulnerabilities in our 
satellite systems.
    One of the most basic requirements for protecting our 
satellites, which I am concerned does not receive sufficient 
attention, is to know their current status and to understand 
the threats they face. Space Situational Awareness (SSA), as it 
is known, has not always received the attention it deserves in 
competition with the desire to field new space systems with 
improved capabilities.
    It was with this concern in mind that our subcommittee 
advocated for and the National Defense Authorization Act (NDAA) 
for Fiscal Year 2008 directed the development of a national 
space protection strategy. The Secretary of Defense, in 
conjunction with the Director of National Intelligence (DNI), 
must prepare a strategy focused primarily on protection and 
space situational awareness requirements by July of this year.
    Today, I would like to ask our witnesses to discuss the 
Administration's progress toward establishing a space 
protection strategy and, just as importantly, to address this 
question: Do you think we have struck the right balance in the 
fiscal year 2009 budget between investing in new systems and 
efforts to improve Space Situational Awareness?
    With an aging generation of systems on-orbit, the national 
security space community has been struggling to develop and 
field new systems for the past decade. In that regard, I know 
our witnesses must be proud of the payloads that were 
successfully delivered on-orbit this past year, including the 
last Defense Support Program satellite, the first Wideband 
Global SATCOM Satellite, and two additional Global Positioning 
System (GPS) birds.
    And I want to congratulate each of our witnesses, today, on 
the 56th consecutive successful launch of a medium or heavy 
payload that took place on December 10th last year, launching 
into orbit a satellite developed by the NRO.
    Yet, as we well know, even with these successes, we face 
potential gaps in key satellite capabilities during the next 
decade. Many of the replacement systems, such as Spaced Based 
Infrared System (SBIRS), the Defense Support System (DSP) 
replacement, have been plagued by inaccurate cost estimates and 
optimistic predictions of technical maturity.
    More generally, I am concerned that the space acquisition 
system is fundamentally broken and would ask our witnesses to 
discuss what is being done to fix the process. In particular, 
how can we be confident that the back-to-basics strategy that 
you have adopted will result in better acquisition outcomes?
    I am well aware of the benefits space-based assets provide 
to the warfighter, and I am committed to maintaining these 
capabilities without any gaps. Over the past few years, 
Congress has slowed the development of selected systems through 
the budget process due to concerns about the pace of these new 
programs and the emphasis on transformational systems designed 
to skip a technological generation.
    While the Administration adopted the back-to-basics 
approach partly in response to congressional concerns, this 
year we are concerned that you may well have overcorrected by 
delaying fielding of the transformational communications 
satellite (TSAT) by at least two years. TSAT will be required 
to provide the necessary bandwidth to support protected 
communications on the move for systems, such as the Army's 
Future Combat System (FCS). We hope that our witnesses today 
can help us understand why $4 billion previously designated for 
TSAT was removed from the five-year defense plan.
    While we have many questions, I want to assure you that the 
Congress is committed to working with the Department and the 
intelligence community (IC) to put our national security space 
programs on an affordable, sustainable track; one which 
accounts for the change in the threat environment and will 
protect our warfighters and the American people.
    Before we proceed, I would like to remind my colleagues and 
the witnesses that we are in open session and to take care to 
keep our questions and your answers unclassified.
    With that, I would like to thank the witnesses again for 
being here today, and I look forward to your testimony.
    Now, let me recognize my very good friend and colleague, 
Mr. Everett of Alabama, the Ranking Member of this 
subcommittee, for any comments that he might have.
    Mr. Everett, the floor is yours.

STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM ALABAMA, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. Thank you, Chairman Tauscher.
    I also want to extend a warm welcome to our witnesses for 
appearing before us today.
    Welcome back, General Kehler, and congratulations on your 
new position.
    I am privileged to welcome Mr. Payton and Mr. Large in your 
first appearances before the subcommittee.
    Let me start out by congratulating our witnesses for their 
successful interception of a disabled NRO satellite last week. 
This mission was not one you had envisioned or had much time to 
prepare for, yet you did a great job, and you safeguarded the 
public from potential harm. I commend the transparent manner in 
which these plans were executed.
    This will continue to be a challenging budget year. We have 
immense budget pressures and competing defense priorities. 
However, I cannot stress the point enough that our modern 
military force is dependent on space, and our investment in 
space cannot be shortchanged.
    A case in point--the chairman mentioned this--TSAT is the 
only STRATCOM system planned to provide wideband-protected 
communications. Over the next few years, over 200 Army-Marine 
units will be reliant on unprotected communications, as will 
the Army's Future Combat System brigades once they come online.
    Each Predator, Reefer, Warrior, Global Hawk unmanned 
aircraft system (UAS) fielded by the services will be 
unprotected communications. These forces are the most 
susceptible to jamming, yet the Department has chosen to cut $4 
billion from TSAT. I do not want to take anything away from 
Wideband Global Satellite (WGS), it is a great capability, but 
I do want to know why protected communications is not a 
priority requirement.
    I understand that the Department is revisiting this. I 
would ask you to come back and brief this committee once your 
analysis is complete.
    We are now a year away from the Chinese ASAT test. Last 
year, this committee asked for a comprehensive space protection 
strategy to guide the investments. This year's budget should be 
the Department's first opportunity to make changes in the Space 
Situational Awareness and space protection budgets. I hope you 
can discuss efforts in this area.
    In addition to capability investments, I also remain 
concerned about how our military would operate in a space 
threat environment. For instance, do war games and exercises 
include space denial, and has there been a deliberate hard look 
at our war plans?
    General Kehler, as you had mentioned last year, if you take 
away space from the fight, the impact on our forces is a 
reverse time machine.
    Under the chairman's leadership, our committee has 
continued its strong oversight of space acquisition. I 
appreciate your assessment of current state-of-space 
acquisition, and the status of some key programs in this year's 
budget--GPS III, SBIRS, Space Radar (SR), and Operationally 
Responsive Space (ORS).
    Before closing, I want to thank you again for your service 
and leadership in the space community. I think space--in 
particular national security space--is one of the most exciting 
things this Nation and this Congress does.
    I thank you, Chairman. This is an extremely important 
budget year and hearing to have. So thank you for calling the 
hearing, and for your leadership.
    Ms. Tauscher. Thank you, Mr. Everett, very much.
    General Kehler, Commander of the Air Force Space Command, 
welcome; and we appreciate the fact that you have an extensive 
and comprehensive statement you have submitted for the record. 
If you could summarize that, the floor is yours.

STATEMENT OF GEN. C. ROBERT KEHLER, USAF, COMMANDER, AIR FORCE 
                 SPACE COMMAND, U.S. AIR FORCE

    General Kehler. Madam Chairwoman, thank you very, very 
much. Congressman Everett. Members of the subcommittee.
    Yes, I have appeared before this subcommittee before, a 
year or so ago, but this is the first time as the commander of 
really magnificent 39,000-plus men and women who are active-
duty airmen. They are guardsmen, they are reservists, they are 
government civilians, and they are contractors, and they are 
doing a spectacular job. And I am very, very proud to be 
associated with them.
    So thanks so much for inviting us here today, and thank you 
for the subcommittee's support of this subject.
    Madam Chairwoman, I think you have summarized it very well, 
and I am not going to say anything more in terms of an opening 
statement, other than to completely agree with you.
    Space is a very, very important place for the United States 
military, for the national security apparatus, and for the 
United States of America in general. There is no question that 
space is an important place for us militarily, economically, 
and it has really been woven now into the social fabric of how 
we all conduct our daily lives; something that should not be 
lost on any of us as we think about the potential of space as a 
contested environment in some future conflict.
    We believe that the evidence is clear. What we observe 
today with many, many actors around the world shows to us that 
there are those determined adversaries out there who will seek 
to remove the advantages that the United States has with its 
space capabilities in some future conflict.
    We do not just see that in evidence through the Chinese 
ASAT test of a little over a year ago, but as you pointed out, 
we have seen jamming all the way back to Saddam Hussein 
attempting to jam GPS. We have seen the proliferation of 
jammers for GPS and other communications signals. We know that 
the jamming activity will be there in a future conflict, just 
as they have already been in a past conflict.
    We have seen the demonstration, in some cases the 
development, of other potentially troubling anti-satellite kind 
of things, as well; ground-based things that we have seen, in 
terms of laser development and other activities, that could 
serve to blind our assets or otherwise disrupt those, as well 
as some of the things that we have now seen in evidence with 
the Chinese kinetic anti-satellite test. These are not 
necessarily new threats, and certainly the Chinese test, while 
very troubling, was not a surprise.
    So the question now becomes: If this is going to be a 
contested domain, what do we do about that? And that was the 
first of the questions that you posed. Do we have gaps? And I 
would answer, quite frankly, in some cases, we do. We know that 
there are some of our assets today that are more susceptible to 
some of these threats than others.
    In some cases, our space assets are very well protected 
today, because we knew during the Cold War that we would face 
the same kind of a determined adversary--saw the same kind of 
evidence out of that adversary--and so we prepared ourselves, 
in some cases, to deal with that kind of an adversary. And the 
result of that preparation are systems that are on-orbit today 
that are quite effective against some of the threats that we 
see developing.
    In other cases, that is not true, and we will need to 
address those. In some cases, we have done that 
programmatically; and so programs like GPS III, programs like 
Advanced Airborne Electronic Attack (AEA), Advanced Extremely 
High Frequency (AEHF), and some of the other activities that we 
have ongoing are designed to try to deal with some of these 
threats.
    The number one concern that we have is to improve our Space 
Situational Awareness, and that you will see--although those 
are not large budget dollars when you consider the overall 
scope of the budget, in fact--has had a budget increase from 
fiscal 2008, the budget that you enacted; to the request that 
we have sitting before you today.
    My opinion about Space Situational Awareness is that 
perhaps the most effective use of the money that we can have 
this year is to make better use of the sensors that we have. 
And so you will see a request for some improvement in things 
that do not sound, on the surface, to be very compelling or 
appealing, but we think will go a long way toward helping us 
improve our SSA early on.
    Thank you for your comment about the very large joint team 
that conducted the successful intercept. I will tell you the 
lesson that I took away from that was the value of high-quality 
Space Situational Awareness because, if you have high-quality 
Space Situational Awareness and high-quality space 
surveillance, we can begin to characterize--in this case, we 
were able to characterize with very high precision--what was 
actually going on with an object in space, what it looked like 
in terms of tumble, et cetera; all things that would be 
important for us in the future as we look at understanding what 
is happening to us in space, discriminating whether or not it 
is a natural event that we have just experienced or a 
determined attack, and being able to attribute those kinds of 
differences. All of those are important to us.
    And so let me just conclude by, again, thanking you. We 
look forward to the rest of your questions. I certainly look 
forward to your questions. I will not try and go down that 
entire list right now, but you certainly have whet our 
appetites for a further dialogue.
    [The prepared statement of General Kehler can be found in 
the Appendix on page 21.]
    Ms. Tauscher. Thank you very much, General Kehler.
    Under Secretary of the Air Force Payton, welcome. Your 
statement is put in the record, and if you could summarize, the 
floor is yours.

STATEMENT OF HON. GARY E. PAYTON, DEPUTY UNDER SECRETARY OF THE 
                  AIR FORCE FOR SPACE PROGRAMS

    Secretary Payton. Thank you, ma'am.
    Ms. Tauscher. You are welcome.
    Secretary Payton. Again, Chairman Tauscher, Mr. Everett, I 
greatly appreciate the opportunity to talk about military space 
with the committee today. We have a superb relationship with 
this committee, and we view it very highly.
    Let me answer one of your questions in my opening 
statement, maybe save a little time that way. You asked about 
evidence that back-to-basics was working. I would point to the 
GPS III program, a program that is, at its heart, designed to 
counteract enemy potential adversary degradation of GPS 
service. We call it NAVWAR.
    The evidence that we have that back-to-basics is working is 
because a critical part of back-to-basics is what I call a 
block approach: Incremental deliveries bite off smaller chunks 
of new capability, build on proven technology before we start 
full-scale development of the new system.
    GPS III is a perfect example of how we have done that in a 
program. We worked with the combatant commanders, as 
represented by the Joint Chiefs of Staff, and directly with 
Strategic Command, and the services, and in the GPS case, even 
Department of Transportation (DOT), other Federal agencies, 
because GPS serves such a wide variety of users. We identified 
those first critical, most important new functionalities that 
the GPS III constellation should supply. We packaged that into 
something called Block A of the GPS III program.
    This spring, we should be able to award the full-scale 
development contract for Block A of the GPS III program. We 
have already defined a tentative Block B that would come after 
Block A, and then finally a Block C that is the definitive end 
state of the GPS III constellation. And so to me, that is 
evidence that we are making progress in back-to-basics.
    We have the proven technology for the GPS III A 
acquisition. We have been spending two years proving those 
component technologies. We have competitive bidders with their 
designs for that spacecraft under evaluation right now, and we 
should be able to award a full-scale development contract for 
the GPS III A program this spring.
    And so, again, it is an example, a near-term example, of 
how we think the back-to-basics acquisition strategy is showing 
success. We are not out of the woods. There are still several 
programs. I am sure we will turn up rocks with lizards 
underneath them. But there are some promising signs that back-
to-basics is working.
    And, again, thank you for the invitation today, and I look 
forward to your other questions.
    [The prepared statement of Secretary Payton can be found in 
the Appendix on page 47.]
    Ms. Tauscher. Thank you, Under Secretary Payton.
    The Director of National Reconnaissance Office, Mr. Scott 
Large, welcome. It is your first appearance before the 
committee.
    Mr. Large. Thank you. Yes, it is, thank you, ma'am.
    Ms. Tauscher. Congratulations on your appointment.
    Mr. Large. Thank you.
    Ms. Tauscher. Thank you. Your testimony is put in the 
record, and please summarize. The floor is yours.

       STATEMENT OF HON. SCOTT LARGE, DIRECTOR, NATIONAL 
                     RECONNAISSANCE OFFICE

    Mr. Large. Very good.
    Madam Chairman, Mr. Everett, other members, thank you very 
much for the opportunity. As the chairman said, this is my 
first opportunity to address the subcommittee.
    Hopefully, by seeing the three of us up here together, you 
may get some insight and a good feeling for the state of 
integration across what I will term national security space. 
There is a lot going on in the national security space 
environment, as both General Kehler and Mr. Payton have 
described.
    The NRO is a strong and integral member of that national 
security space team. And while today's setting is an 
unclassified setting, and I will not be able to go into great 
details and particulars to some of the questions you may have, 
what I would like to stress is that we are what I believe is a 
vital part of direct support to the warfighters; a member of 
the team addressing space protection, which of course, is one 
of the most important topics we are discussing today. But, 
also, as far as acquisition, the back-to-basics, the NRO is on 
a path that we have charted over the last year or so to try to 
move past some of the challenges we have faced in the last 
several years. And I think we are making progress.
    In a future setting with the committee, the subcommittee, I 
would like to go into great detail on exactly what we are doing 
to try to recover our position in effective acquisition of 
space systems.
    The other thing that I would leave with you quickly is 
that, while we talk about space protection, we talk about 
acquisition. We also are concerned where we are going in the 
future, the investments in research and development (R&D), and 
the fact that we are jointly involved with our other 
spacefaring agencies within the DOD, and actually the civilian 
community in pushing forward some of the limits of space R&D.
    With that, I look forward to answering your questions. 
Hopefully, we can address some of the specific issues you have 
today.
    Thank you very much.
    [The prepared statement of Mr. Large can be found in the 
Appendix on page 61.]
    Ms. Tauscher. Thank you, Director.
    I will tell the committee that we are working with our own 
schedule to have a classified briefing with the director and 
others. Perhaps General Kehler and Mr. Payton could also 
attend. It will be as soon as we can find the time, and it will 
be, as I said, a classified hearing.
    I want to get back to one of the questions I asked, because 
I think it is fundamentally what we really care about the most, 
and that is about what we would do if our assets were attacked. 
Do you have appropriate contingency plans for closing the ISR 
gaps that our warfighters would experience, regardless of who 
attacks us and what method they use? Do you feel confident that 
we have an appropriate Plan B?
    And, second, how would you judge the process of the 
Operational Responsive Space program's efforts to develop 
systems that might fill these potential gaps?
    General Kehler.
    General Kehler. Ma'am, thank you.
    First of all, let me describe that as the Commander of Air 
Force Space Command, we are a force provider to the Commander 
of Strategic Command, who really is the one who deals with the 
question of operational planning and contingency planning.
    Having said that, however, there are operational plans that 
are certainly contingency plans, not only with U.S. Strategic 
Command, but across the regional combatant commanders as well, 
for dealing with a number of potential outcomes here. What I 
cannot do today is sit here and say that as we look to the 
future that we always have in place a way to compensate for the 
loss of space assets.
    What I can tell you is we are working on that very hard, 
and we believe that that is a central piece of our strategic 
approach to how we would deal with the potential loss of our 
space assets. In some cases, we are very confident today that 
we have alternative ways, if not to completely address the loss 
of a space asset, to certainly compensate for that in 
warfighting terms.
    In other cases, we do not have as much confidence as we 
look to the future--for example, GPS. I mean, that is why we 
are looking to improve the GPS constellation in incremental 
blocks as we go forward, as Mr. Payton described.
    In some cases, we think that we have fairly good capability 
today to accomplish some of our intelligence, surveillance, and 
reconnaissance missions with air platforms and other things, 
but that is situationally dependent also. And so what I do not 
want to leave you with is the impression that all of our 
concerns are addressed. They are not.
    I also do not want to create the impression that we are not 
working on this and, in some cases, I cannot go into the 
specific details, but what I can tell you is that a key part of 
our strategy as we look to the future and we think through how 
do we address the notion of space becoming a contested domain 
or space capabilities becoming challenged in one way or 
another, a large part of this is understanding how we can use 
the assets in all of the domains in order to bring to the 
combatant commanders the full range of capabilities that then 
makes this very difficult for an adversary to address.
    We do not want to be one dimensional, for sure. On the 
other hand, there are some things that we do best, and in some 
cases, can only do from space for our warfighters. And so in 
those cases, we are going to have to pay particularly close 
attention to make sure that we have addressed those needs and 
have appropriate compensation measures; perhaps even an 
operationally responsive way to replace or augment those 
capabilities if, in fact, they are threatened. That is where 
ORS begins to come in.
    Now let me take just a second, if I might, to describe to 
you that operational responsiveness in our mind is not just 
about small platforms and small launch vehicles. Operational 
responsiveness starts on the ground, and we believe that, in 
many cases, we can get more operationally responsive with 
changes that we make on the ground using our existing assets, 
and that is where we always start.
    But as we look in the tool bag of things that we would want 
to have available for the future, one of those tools needs to 
be a way to put smaller, single-purpose, shorter-lived 
platforms on-orbit in response to a specific warfighter need, 
or in response to an augmentation request or in response to a 
reconstitution request. So we are looking at ORS as if it is a 
national strategic capability for the future, and today, what 
we are doing is we are working on the building blocks to make 
it so.
    So, as we work our way through this budget, we are going 
from fall to walk to, I hope, run by the end of this time 
period, this five-year time period, so that we can present to 
the combatant commanders, in our case through the Commander of 
U.S. Strategic Command, an appropriate way to supplement, or 
replace, or reconstitute critical assets when those are 
absolutely necessary.
    Ms. Tauscher. Okay.
    Under Secretary, Director, do you have anything to add to 
that?
    Mr. Large. I would suggest the ORS program is doing both 
enablers for ground control or new sorts of spacecraft, plug-
and-play spacecraft in particular. We are continuing the TacSat 
series; we flew TacSat-2; we are going to launch TacSat-3 
within a few months; and we are designing TacSat-5 right now to 
demonstrate one of the critical enablers, which is that notion 
of rapidly assembling from flight quality parts already on the 
shelf, a plug-and-play spacecraft that can be fine-tuned to the 
combatant commanders' needs. Tentatively, that is one of the 
objectives of TacSat-5.
    Ms. Tauscher. Thank you.
    Mr. Large. So we are making progress.
    Ms. Tauscher. I appreciate that.
    We have just been notified that we are going to have a 
series of four votes.
    Mr. Everett, I am going to go to you, and perhaps we can 
quickly get through some questions.
    Four votes sometimes turns into 45 minutes very quickly, 
although that is not the way the clock is meant to work.
    Mr. Everett.
    Mr. Everett. Thank you. Chairman, I am specifically going 
to touch on TSAT.
    Ms. Tauscher. Sure.
    Mr. Everett. That is something you have already covered in 
your opening statement, but it concerns me that--and, General 
Kehler, we have talked about this--in a few years when TSAT is 
scheduled to come online, we could have as many as 400 units, 
Marines, ground folk that would be using unprotected 
communications, and I am wondering if there is any workaround 
on that. Should we slow walk some of the stuff like Future 
Combat Systems, the UASes that would depend on TSAT for 
protection com work? And, as we know, UASes are becoming 
extremely important in our warfighters' plans, as well as ISR.
    General Kehler. Sir, I----
    Mr. Everett. So I guess my first question is: Should we 
slow walk some of these other systems?
    General Kehler. Sir, I think it is premature to slow walk 
that. Let me back up here for a second. Military satellite 
communications, as you all know, are critically important to 
us, and today, we get satellite communications with a large 
participating from commercial satellite companies and 
providers, and they do a spectacular job. In fact, over half 
support what we do today through satellite communications is 
done through commercial communications, and so that mixture, we 
believe, at some level, will have to continue into the future.
    At the same time, we have just started to deploy WGS, the 
first of six satellites, which is going to be critically 
important for expanded wideband communications, and we are 
within a year, we believe, of launching the first AEHF. So we 
are progressing.
    The question then becomes: How do we then get to the next 
most important issue that the warfighters have raised, and that 
is protected communications. The decisions that we made last 
year on TSAT, which were made largely in response to the need 
to purchase a fourth AEHF satellite, rippled through the Future 
Years Defense Program (FYDP). But, at the same time that ripple 
occurred, we were asked to participate with a team inside the 
Department to come back and take a hard look at how this should 
now go forward, given the fourth AEHF, and how we keep all 
these pieces together, and address the warfighter needs.
    That review is going on as we speak today, and I cannot 
tell you what the answer is yet about how we intend to address 
the warfighter needs. What I can tell you is the warfighters 
are at that table; and as we look to come back to you, we will 
look to come back to you with a balanced way forward that 
addresses their needs synchronized with when those needs are 
and, again, we know that there is growth coming out there, both 
in terms of bandwidth, and we know that there is growth coming 
in terms of our requirement to do protected communications. 
What we do not have yet is a revised answer in light of the 
insertion of the fourth AEHF in the net flow, and that answer 
we owe you.
    I think, at this point, sir, it would be premature for us 
to try to decide that there was some different phasing out 
there. I think our first objective is to come back and see if 
we can come up with a plan that continues that phasing the way 
the other services are requiring it.
    Mr. Everett. Thank you, Chairman.
    Ms. Tauscher. Mr. Everett, I think we all have the same 
concern about TSAT. Perhaps we will ask General Kehler when he 
has that answer to give us a call, and we will have a small 
informal meeting.
    If you do not mind, sir, we would like to have you come 
back, and we will gather as many people as possible.
    General Kehler. Yes, ma'am.
    Ms. Tauscher. But we do think that before the bill that we 
are writing gets built any further, we need to have an answer 
to that.
    Mr. Larsen of Washington.
    Mr. Larsen. Thank you, Madam Chair.
    General Kehler, can I just put a finer point to paraphrase 
what you just said, see if I understand it? Regarding TSAT, the 
original launch was scheduled 2016, but since there has been $4 
billion or so, at least from our analysis, taken out of TSAT, 
you do not know what that date is. It might be 2016. It might 
be later. You just do not know whether this fourth AEHF is 
going to fill that need until such time we can get to TSAT. Is 
that----
    General Kehler. Yes, sir. I think that is a good----
    Mr. Larsen [continuing]. I understand? Okay. Thanks.
    Regarding international opportunities, I am not sure who to 
ask. Perhaps I will start with Secretary Payton. Last week--and 
Madam Chair mentioned this in her testimony. Last week, Mr. 
Vickers discussed voluntary guidelines and rules of the road. 
Now, in his answers to questions, someone asked whether or not 
the Administration at least had a plan in mind for rules of the 
road in space, or whether this is just some sort of general 
discussion about rules of the road and there is really nothing 
yet more behind it.
    Do you have any idea, thoughts on the merits of rules of 
the road in space, or other international regimes, short of 
treaties, that just sort of discuss the Coast Guard rules like, 
make sure you have a green light on the right of your boat and 
a red light on the left of your boat?
    Secretary Payton. In some regards, there already are tacit 
agreements amongst most spacefaring nations.
    For instance, one of the biggest sources of debris is spent 
upper stages that still have propellant on board. The United 
States, Europe, as a routine for that last rocket stage that is 
in orbit near the satellite, we take that and vent the 
propellants out of that rocket stage so there is much, much 
less likelihood of that rocket exploding a few years from now.
    Up at geosynchronous (GEO), the geosynchronous belt is a 
very high-value piece of space real estate. Again, tacit 
agreements. As upper stages deposit a spacecraft there, that 
upper stage then moves higher than geosynchronous so that it 
does not become a navigation hazard. And also operators of 
geosynchronous spacecraft, whether they are commercial or 
government, as the spacecraft runs out of propellant for 
station keeping, they tend to dispose of them in a higher 
graveyard orbit, again, so that they do not present a 
navigation hazard.
    So some of the problem becomes convincing all spacefaring 
entities to abide by those rules. I believe China has just 
recently bragged about how they can do that with their last 
uppers, their last stage, from one of their geosynchronous 
launches.
    So those are tacit agreements that have been developed out 
of best practices and shared amongst the reputable space 
operators. So there are some valuable, critical rules of the 
road, if you would, already in place. Now the first step, I 
would contend, is a function of getting all players to abide by 
those tacit agreements.
    Mr. Larsen. Thanks.
    Another question about international opportunities: In 
2007, the Australian Government agreed to invest in the 
Wideband Global System. Are there other opportunities across 
the space portfolio for greater international cooperation?
    Secretary Payton. Yes, sir. In fact, on the AEHF program, 
we have participation from the Netherlands, and the United 
Kingdom, and Canada, and then the----
    Mr. Larsen. Can you discuss what they will get out of that, 
or is that something we need to discuss----
    Secretary Payton. I believe it is rolled up in conjunction 
with the North Atlantic Treaty Orgnization (NATO) 
communications agency, and how those countries contribute to 
NATO's communications bandwidth, and they do it through AEHF; 
and we are always looking at other opportunities because 
geography counts, especially in Space Situational Awareness, 
geography counts.
    Mr. Larsen. Madam Chairman, that is where I will end here.
    Ms. Tauscher. Thank you, Mr. Larsen.
    Mr. Franks from Arizona.
    Mr. Franks. Well, thank you, Madam Chair.
    Thank you, Mr. Larsen.
    I thank all of you for everything that you do. I do not 
know how the country would survive without your cutting-edge 
focus, and we really appreciate it.
    General Kehler, I might say to you--and carbon copy 
everyone else that had anything to do with it--this satellite 
shootdown continues to be a real source of excitement on the 
part of a lot of us. I do not want to use the word pride 
because that is when we get in trouble, but----
    Ms. Tauscher. You can feel proud of it, Mr. Franks.
    Mr. Franks. I just think that you all did a magnificent 
job. And I think one of the things it did, in my mind, is that 
it demonstrated the inextricable and intrinsic relationship 
between national security space and missile defense. Because, 
in a sense, we saw a missile defense asset accomplish a space 
mission. And with all of the things that you have to juggle, as 
it were, whether it is cyberspace challenges or the missile 
defense capabilities, could you give us some perspective on the 
cooperation between the Missile Defense Agency (MDA) and the 
Air Force Space Command, and why it is important to make sure 
that there are not only cooperation there, but you have the 
flexibility to interact in these areas without us creating any 
artificial barriers?
    General Kehler. Yes, sir.
    First of all, let me say that, again the Air Force Space 
Command's piece of this activity was a piece of a much larger 
activity that was a joint activity extended into the Missile 
Defense Agency, et cetera, under the command of the Commander 
of Strategic Command. And so, first, I think we should feel 
very gratified that the joint team did what the joint team we 
know can do when they come together. It also extended elsewhere 
in the government. Of course, Mr. Large's organization and 
others were deeply involved, NASA as well. And so this was a 
very large team of folks that came together to make this 
happen.
    Our piece of this primarily in Air Force Space Command was 
space surveillance; and the space surveillance network that we 
operate on behalf of the Nation, when combined with the sensors 
that the Missile Defense Agency has put out, in combination 
with other government sensors, proved to be a decisive 
advantage for us. And so I would offer that the single largest 
lesson that I took out of this was the value of us being able 
to use sensors that were created for different missions 
together, and that is a model that we are going to try to 
follow as we get to better, and better, and better Space 
Situational Awareness.
    It really is the combined use of all of the sensors 
together, being able to display the information from the 
sensors, and make that useable for decision makers that enabled 
this to happen, and that does not take anything away from 
anybody on the team who had many, many, many different roles to 
play. It certainly takes nothing away from the great United 
States Navy, but it was a large team.
    And what I take away from this, in terms of cooperation 
with Air Force Space Command and Missile Defense Agency, was 
the use of the sensors, the command and control, and the 
networking that was done.
    Mr. Franks. Well, thank you, Madam Chair.
    Just one other question, Mr. Large.
    Mr. Large. Sir.
    Mr. Franks. Within the constraints of an open meeting here, 
I am trying to make sure that I couch this question in a way 
that does not put you in any awkward position at all.
    I have several open letters here from Admiral Keating, from 
others, that delineate some capability that the Space Radar has 
that are pretty unique and pretty irreplaceable. With that in 
mind, you know that Congress made some significant cuts in that 
regard, and we cited, you know, affordability, and program 
scope, and technological----
    Mr. Large. Yes, sir.
    Mr. Franks [continuing]. And a lot of things. So my 
question to you is, within the limitations of an open session 
here, can you discuss the measures that you and the Department 
of Defense have taken toward defining a Space Radar program 
that effectively balances cost, risk, and performance? I mean, 
are we on the right track here, given the importance of this 
system.
    Mr. Large. Sir, within the constraints of the situation 
where we are right now, I would say that between both the 
Department of Defense and the intelligence community, the DNI, 
I believe we have mapped out what we believe is an alternative 
approach that addresses, first of all, the Congress's concerns 
about affordability, scope, timelines, and so on. We are in the 
process of socializing that certainly between both communities, 
the IC and the DOD, so that we are prepared to bring that 
forward to you.
    We believe we have a solution set. We are working with the 
Air Force acquisition piece, the Department of Defense, other 
acquisition pieces, and the interests of, certainly, the DNI 
and his acquisition requirements. But I am uncomfortable going 
beyond that at this point.
    Mr. Franks. Close enough.
    Thanks, all of you, for what you do.
    And thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Franks.
    Director Large, can you give us a sense for when the 
scoping memo that you are talking about may be prepared and 
when we could actually get access to it? Are we talking 45 
days?
    Mr. Large. I am hoping that within 45 days we will be able 
to come back to the committee with more details of what the 
plan is.
    Ms. Tauscher. Good. We will see you in 46 days.
    Mr. Large. Yes, ma'am. I will write that down. [Laughter.]
    Ms. Tauscher. Gentlemen, thank you so much for your 
service. Thank you for the leadership you provide to the tens 
of thousands of people that work in your area of responsibility 
(AOR) and under your command, and the civilians and the 
contractors, many people, as I said earlier, who are without 
thanks, who work very anonymously, and do great service to the 
American people, and certainly advance our cause protecting the 
warfighter and making sure that we are safe here at home.
    We have four votes. It will take us about 45 minutes. So we 
are going to relieve you of duty, right now. Thank you very 
much for being here. We expect to see you in a classified 
session in 45, 46 days or so.
    Thank you very much, again, for your service and thank you 
for appearing before the committee.
    [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]
     
=======================================================================
                            A P P E N D I X

                             March 5, 2008
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 5, 2008

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 5, 2008

=======================================================================
      
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, how would 
you describe the rationale for the February 20th intercept of the 
failed U.S. satellite?
    Secretary Payton and General Kehler. The President directed the 
satellite intercept to mitigate risk to human life from the 1,000 
pounds of toxic hydrazine fuel onboard the non-controllable U.S. 
satellite that was about to reenter the Earth's atmosphere. In a 
controlled satellite reentry, risk is managed by causing the reentry to 
occur over the ocean or sparsely populated areas. This satellite was 
non-functional and unable to be commanded or controlled, making it 
impossible to predict the exact time or location of satellite reentry/
impact.
    Modeling and analysis gave high confidence that the intercept would 
be successful. The time, location and geometry of the intercept were 
carefully chosen to maximize the success of fragmenting the hydrazine 
fuel tank, minimize the risk of reentering debris hitting populated 
areas, and to minimize the risk of debris to other space objects.
    Ms. Tauscher. Mr. Payton and General Kehler, Please describe Air 
Force Space Command's role in the February 20, 2008 satellite 
intercept.
    Secretary Payton and General Kehler. Air Force Space Command 
(AFSPC) operators provided high quality space surveillance and space 
situational awareness (SSA) information to USSTRATCOM via the Joint 
Functional Component Commander-SPACE (JFCC-SPACE) Joint Space 
Operations Center (JSpOC).
    AFSPC's Space Surveillance Network provided tracking and 
characterization data that enabled prediction of the satellite's 
location and relative position. This data was fused with other sensor 
data and forwarded to the Missile Defense Agency (MDA) and Navy to 
support the engagement.
    AFSPC Overhead Non-imaging Infrared sensors provided information 
during engagement and reentry to include IR detection of the hit/kill 
and prediction of potential earth impact for any large pieces of 
debris.
    After the satellite intercept, the Space Surveillance Network 
tracked the resulting debris and provided both piece count and 
positional data to support analysis of the debris field. Data was used 
to predict potential hazards to active satellites, perform conjunction 
analysis for satellite owner operators (to include commercial and 
foreign entities), and monitor decay of debris reentering the earth's 
atmosphere. That tracking continues today.
    Finally, the 30th Space Wing's (Vandenberg AFB) HAZMAT team was on 
standby to support potential recovery operations as part of the 
Consequence Management Response Team.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, the 
Pentagon's annual China military modernization report will be released 
March 3rd and is expected to build upon last year's report that China 
continues to develop a multi-dimensional counterspace program. What 
implications do these developments have on our national security space 
posture?
    Secretary Payton and General Kehler. The number of space faring 
nations is growing and it should be noted China is not the only country 
to possess counterspace capabilities. We now operate in a contested 
space domain and, therefore, Space Situational Awareness and Space 
Protection are high priorities for National Security Space (NSS) 
systems. While some of our space capabilities are protected, we realize 
that we will likely face a wider range of threats to not only the 
satellites, but also their ground infrastructure and the links that 
control/connect these systems
    The most recent National Space Policy reinforces our commitment to 
the peaceful use of space, yet acknowledges the fact that we have a 
right of self-defense. Because of the growing number of threats, we 
need an integrated National space protection strategy that synchronizes 
the many disparate vulnerability assessment and protection activities 
across the NSS and that addresses these multi-dimensional threats 
through a holistic and systematic process across all NSS capabilities.
    To address these issues, Air Force Space Command and NRO 
established a Space Protection Program (SPP) on 31 March 2008, to help 
make informed decisions about how to best preserve our space 
capabilities via comprehensive vulnerability assessments, protection 
strategies and concepts, protection technologies investment, and 
protection capstone requirements definition with roadmaps to define 
integration of protection capabilities into future systems. 
Additionally, we are increasing our efforts to develop Operationally 
Responsive Space (ORS) capabilities to allow us options in the future 
to quickly replace or augment existing satellite capabilities.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, how should 
the investment strategy be restructured across the Air Force and NRO 
space portfolios to avoid single-point vulnerabilities as highlighted 
by the Chinese ASAT test last year? Does the 2009 budget request 
reflect any programmatic or operational changes?
    Secretary Payton and General Kehler. We recognize space is a 
contested environment and considered this in our investment strategy. 
The Air Force is exploring what methods we need to ensure survivability 
of space capabilities. In the FY09 budget request, we have programs 
like Operationally Responsive Space (ORS) which seeks to develop the 
capability to rapidly augment, replenish or replace space capabilities, 
when necessary. Additionally, Air Force Space Command formed a Space 
Protection Office in conjunction with the NRO that is dedicated to 
mapping a way ahead for this effort. We also increased our investment 
in space situational awareness, especially in areas that will help make 
better use of existing sensors and their supporting systems. 
Additionally, the FY09 budget request includes funding for a 
vulnerability assessment center and additional intelligence analysts to 
provide more timely support to space operations centers.
    Outputs of these efforts will be reflected in integrated space 
architectures produced by the National Security Space Office (NSSO) as 
well as in future budget requests for the DOD and the IC. Integrated 
Space Architectures, which cover the next 10 to 20 years, are intended 
to optimize investments across the National Security Space Community, 
while the National Security Space Plan (NSSP) will identify those 
investments required in the near term to achieve the architecture 
vectors.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, we 
understand the Chinese ASAT test was a good example of how intelligence 
was ``operationalized'' to provide near real-time support to military 
users. As threats to space increase, so too will the demand for greater 
space intelligence support and resources. How does the Department plan 
to address this requirement?
    Secretary Payton and General Kehler. This question properly falls 
to the NRO and we defer to Mr. Large.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, the FY 
2008 National Defense Authorization Act directed the Secretary of 
Defense and Director of National Intelligence to develop a space 
protection strategy. What do you see as the key challenges in this 
area? Are they material or non-material?
    Secretary Payton and General Kehler. We see several challenges and 
opportunities, both material and non-material. The key challenges to 
developing a National Space Protection Strategy will be in integrating 
the DOD and Intelligence Community requirements, establishing the 
minimum space capabilities that need to survive and operate through an 
attack, and prioritizing protection requirements and investment 
decisions. A key element will be to remain agile and responsive to 
emerging threats, while maintaining the proper balance between the 
space, ground, and communication link segments. This will require 
integrating the capabilities across the National Security Space (NSS) 
Community, both DOD and Intelligence Community (IC), in new and in some 
cases unprecedented ways.
    Another key element, will be fostering collaboration among the 
military and intelligence organizations within the NSS, as well as 
ensuring civil, commercial and Allied representation. To enable this, 
Air Force Space Command and the NRO have established a Space Protection 
Program (SPP), which in addition to developing the Congressionally 
directed Space Protection Strategy, will serve to consolidate multiple 
protection efforts, conduct comprehensive NSS vulnerability 
assessments, and identify alternatives for senior leadership to 
consider. The recommended options from the SPP will span both materiel 
and non-materiel capabilities. These could include changes in space 
system designs or changes in the way these systems are operated.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, what is 
the Department's overall protection strategy for assured access to 
space? How does DOD examine and analyze the benefits and cost of 
different strategies? Given the historical experience during the Cold 
War, can space systems be cost-effectively protected?
    Secretary Payton and General Kehler. The National Security Space 
Office's (NSSO) architecture process includes analysis of various 
alternative architectures, including assessments of performance 
benefits and costs. The NSSO has worked with stakeholders to produce 
the Protection for Space Mission Assurance (PSMA) architecture. PSMA 
identified a number of steps (classified) the U.S. could take in the 
near-, mid-, and far-terms to cost effectively protect space systems. 
The Air Force Space Command and NRO Space Protection Program (SPP) and 
other initiatives have begun incorporating PSMA findings and 
recommendations into their efforts.
    For cost effectiveness, it is not only space systems that require 
survivability, but more importantly the space capability architectures. 
Through an architectural combination of protection features (safeguard, 
avoid, preempt, suppress, restore) and an intelligent strategy for the 
assumption of acceptable risk, sufficient mission assurance can be 
achieved in a relatively cost effective manner. In this regard, 
Operationally Responsive Space efforts are working to provide the 
ability to rapidly augment or reconstitute space capabilities. Because 
of the evolving nature of the threats, protection architectures must 
also be flexible and adaptable. As a result, protection features will 
not always be unique to the individual systems but must be considered 
part of the NSS enterprise.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, 
historically, SATCOM requirements exceed the capacity of our government 
systems. To make up the difference, the military spends over $400 
million a year for commercial SATCOM. In Operation Iraqi Freedom over 
80% of our military SATCOM requirements were met by commercial 
carriers. Does national security require the development of a 
Commercial Satellite Communications Policy much like the National 
Remote Sensing Policy? What are we doing to ensure our warfighters are 
getting the necessary communications capability in a timely and cost 
effective manner?
    Secretary Payton and General Kehler. Additional policy is not 
needed at this time. Our SATCOM needs require varying levels of 
protection and security based on the information being transmitted and 
the mission being supported. Much of that need can be, and has been, 
satisfied by commercial providers.
    To ensure timely and cost effective communications capabilities are 
provided to the warfighter, we are currently fielding Wideband Global 
SATCOM (WGS) satellite, and will begin launching Advanced EHF 
satellites in FY09. WGS provides DOD-controlled wideband 
communications, while AEHF will provide a 10-times increase in 
bandwidth for secure, anti-jam, Low Probability of Intercept/Detection 
(LPI/LPD) communication to replace the Milstar constellation. At the 
same time, we are working to reduce risk in preparation for the 
development of the next-generation Transformational Satellite 
Communications (TSAT) satellite.
    These systems will continue to be augmented with commercial 
satellite communications, where the Assistant Secretary of Defense, 
Networks, and Information Integration (ASD(Nll)) provides acquisition 
policy and oversight and the Defense Information Systems Agency 
provides acquisition procedures, lifecycle oversight, and a qualified 
workforce to acquire quality products and services that satisfy our 
warfighters' needs at fair and reasonable costs to the government.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, what is 
your assessment of the synchronization between the launch of military 
SATCOM systems and the fielding of compatible user terminals? How are 
you ensuring that user terminals are fielded to keep pace with new 
capabilities introduced on WGS (already on-orbit), AEHF (1QFY09), and 
the Navy's MUOS (FY 2010)?
    Secretary Payton and General Kehler. The majority of AEHF, WGS, & 
MUOS users will initially utilize the backwards compatibility services 
found on these new satellites to bridge the transition period from the 
legacy systems to the new networks.

    --   Since the first WGS launch last year, over 885 currently 
fielded terminals, including Ground Multi-band Terminal (GMT) and the 
Air Force Wideband Enterprise Terminals (AFWET), are able to use the 
system's legacy X-band capability. At the time of the sixth and final 
WGS launch, 4,586 joint terminals capable of using the new WGS Ka-band 
capability are programmed to have been fielded.

    --   At the time of the first AEHF launch, over 1,290 currently 
fielded, joint terminals will be able to use the system's legacy 
MILSTAR-like capabilities. The first Air Force terminals to start using 
the Extended Data Rate (XDR) capability from AEHF will be the Secure 
Mobile Anti-Jam Reliable Tactical Terminals (SMART-Ts) in FY10. At the 
time of the fourth AEHF launch, 83% of programmed joint terminals 
utilizing the new AEHF waveform are programmed to have been fielded.

    --   At the time of the first MUOS launch, over 61,000, currently 
fielded, joint terminals will be able to take advantage of the system's 
legacy UHF Follow-on (UFO)-like capabilities. At the time of the fifth 
MUOS launch, 1,300 Joint Tactical Radio System (JTRS) terminals, 
capable of UHF SATCOM, will have been fielded. These JTRS terminals 
will be able to take full advantage of the new MUOS capability.

    Ms. Tauscher. Mr. Payton and General Kehler, how are space assets 
modeled in warfighter operational plans (OPPLANS) and contingency plans 
(CONPLANS)? How do OPPLANS and CONPLANS account for scenarios where our 
space assets are attacked or denied?
    Secretary Payton and General Kehler. United States Strategic 
Command (USSTRATCOM) has primary responsibility for the mission of 
space protection and works with all combatant commanders on the use of 
space assets in various OPPLANS and CONPLANS; Air Force Space Command 
(AFSPC) provides space forces to USSTRATCOM for inclusion in USSTRATCOM 
OPPLANS and CONPLANS. USSTRATCOM models space assets within its OPPLANS 
in accordance with the Joint Doctrine for Space Operations, dividing 
space forces into four types; Space Control, Space Force Enhancement, 
Space Support, and Space Force Application. USSTRATCOM then goes on to 
identify several capabilities available for each type of space force 
and generally how they will be used in each phase of an operation. 
Detailed planning of the use of space forces and how they will be used 
to support the Combatant Commanders is done by USSTRATCOM in their 
CONPLANS. USSTRATCOM CONPLANS, through the Joint Force Component 
Commander for Space, plan for three types of space control operations; 
defensive operations, offensive operations, and space situational 
awareness (SSA) operations. SSA capabilities allow U.S. forces to be 
knowledgeable of ongoing activity in space and the location of various 
assets which provides us with the knowledge and battle-space awareness 
needed to more clearly identify when our space assets are threatened or 
attacked. SSA operations provide the foundation for effective action in 
defensive and offensive operations. SSA information directly feeds 
activities under USSTRATCOM CONPLANS to account for the threat of 
attacks or denial of freedom of action through the use of a Space 
Threat Conditions system. Additionally CONPLANS include possible course 
of actions (COAs) for dealing with GPS jamming, communications link 
jamming, laser attacks on satellites, attacks on our ground stations, 
and various types of ASAT weapons. Taken together these plans provide 
USSTRATCOM, the Combatant Commander, and the President or SecDef with 
multiple COAs for ensuring freedom of action for U.S. and friendly 
nations for operations in and through space.
    Ms. Tauscher. Mr. Payton and General Kehler, to what degree do 
current military exercises and wargames incorporate scenarios where our 
space assets are neutralized or attacked, and scenarios where 
redundancies or alternatives are exercised?
    Secretary Payton and General Kehler. Air Force Space Command 
(AFSPC) units and personnel participate in approximately 35 exercises 
and wargames annually. In these exercises and wargames, we support 
Chairman of the Joint Chiefs of Staff (CJCS), United States Strategic 
Command (USSTRATCOM), other Combatant Commanders (COCOMs), Air Force, 
other Services and our own AFSPC training objectives. We undertake 
these exercises and wargames both in the Continental United States 
(CONUS) and in other Combatant Commanders areas of responsibility 
(AORs) because AFSPC is specifically charged to communicate its mission 
and provide support to all military Services and Combatant Commands.
    Let me give you some examples from some recent exercises and our 
most recent Schriever series wargame. In exercises TERMINAL FURY 08 and 
in BLUE FLAG 07-2 our space events included: Global Positioning System 
(GPS) jamming, satellite communication (SATCOM) system interference and 
jamming, laser dazzling of optical surveillance satellites, an attack 
by an anti-satellite system, satellite anomalies requiring the use of 
other capabilities, space weather effecting space capabilities and 
other space control missions. We also relocated our forces in order to 
be able to continue operations as we demonstrate annually during the 
USSTRATCOM GLOBAL Series exercises. All of these actions are taken by 
our forces in the field and obviously some of these events were 
simulated.
    Schriever wargames postulate actions that could be taken by an 
adversary; we then determine available countering courses of action. 
Our most recent example from the Schriever IV Wargame, set in 2025, 
explored U.S. and Allied reaction to space attacks by a near-peer space 
power. These space attacks attempted to take away U.S. and Allied space 
capabilities. We responded with an Operationally Responsive Space 
concept to preserve and restore lost space capabilities. The findings 
from Schriever IV are being used to further develop concepts for 
defense of space. This includes exploring expanded cooperation with 
Allies, investigating senior-level policy and decision-making in 
response to space attacks, and developing a Space Campaign Plan to 
ensure a proactive, unified response to space attacks.
    Ms. Tauscher. Mr. Payton and General Kehler, what is our military's 
response posture and options for various attack or denial scenarios? 
For example, what actions and response would the military take if its 
SATCOM system, Wideband Global System (WGS), were jammed?
    Secretary Payton and General Kehler. United States Strategic 
Command has primary responsibility for the mission of space operations 
and protection and works with all Combatant Commanders on the use of 
space assets. Air Force Space Command (AFSPC) provides space forces 
through 14th Air Force (14 AF) to USSTRATCOM. The 14th AF is also the 
Joint Functional Component Command for Space and manages day-to-day 
operations of joint space forces provided to USSTRATCOM. Working with 
the various Combatant Commanders, joint space forces continue to 
identify ongoing denial of service problems; not only communications, 
but also Global Positioning System, and warning data. Space forces have 
developed tactics, techniques and procedures to overcome these 
situations. The first action is determining the source and who is 
responsible. Next, we take into account the strategic situation, 
whether the jamming is hostile or non-hostile, if it was intentional or 
unintentional and the source. Based on this understanding and the 
impact of the jamming, the Combatant Commander recommends the best 
response option.
    Ms. Tauscher. Mr. Payton and General Kehler, what are the 
warfighters' capability needs and priorities in space and how are these 
shaping the Air Force and NRO space investment strategies?
    Secretary Payton and General Kehler. At Air Force Space Command, we 
are focused on meeting the warfighters' ongoing and future needs. We do 
this through a delicate balance of sustaining and maintaining our 
enduring capabilities, and fielding new or emerging capabilities as 
early as possible. The warfighting commands express their needs in 
several mission areas to include: intelligence, surveillance, and 
reconnaissance; precise position, navigation, and timing; military 
communications; space situational awareness; and nuclear deterrence to 
name a few. The Air Force provides all of these on a daily basis. Every 
year, the Combatant Commanders develop an Integrated Priority List 
stating what capabilities need focus or attention. We utilize these 
documents heavily in determining our overall investment strategy as we 
leverage and integrate space capability across the National Security 
Space enterprise, to include organizations within both the Department 
of Defense and the Intelligence Community. Today, our investment 
strategy follows three basic principles: win the war; take care of our 
people; recapitalize for the future.
    Ms. Tauscher. Mr. Payton and General Kehler, what plans do you have 
to meet these needs and how are they reflected in the FY 2009 budget 
request?
    Secretary Payton and General Kehler. Our Integrated Planning 
Process (strategic planning process) is the methodology we use to focus 
our capabilities on the warfighter needs. These needs are identified by 
our COCOM (USSTRATCOM) in the form of an Integrated Priority List, 
Operations Plans and Joint Capability Documents. We analyze the COCOM 
requests and assess what current and future programs are required to 
provide the desired capabilities. This is communicated back to 
USSTRATCOM for consideration in their Function Solutions Analysis, 
which is submitted to the JROC.
    One of the products generated through this process is the 
Warfighter Required Force. This document provides an unconstrained 
force structure view in satisfaction of COCOM priorities. We understand 
this view is fiscally un-attainable; however it is used as a guide for 
POM development. Ultimately, we aim to provide the required 
capabilities within the constrained resources available.
    The FY 2009 budget request optimizes our investment to support 
COCOM priorities and to provide those required capabilities to the 
warfighter. For example, among other capabilities, the budget request 
supports missile warning, through plus-up of the Space-Based Infrared 
System (SBIRS) program; warfighter positioning, navigation and timing 
requirements, through additions to Global Positioning System (GPS) 
programs; and warfighter communications requirements, through 
investment in the Wideband Global SATCOM (WGS) and Advanced Extremely 
High Frequency (AEHF) programs. Let me assure you, Air Force Space 
Command is focused on delivering space capability to the warfighter.
    Ms. Tauscher. Mr. Payton and General Kehler, last year's defense 
authorization bill added $125.0 million for advanced procurement of 
AEHF-4 to mitigate the risk of a protected communications gap. The FY 
2009 request contains no funds to complete procurement of AEHF-4. Why 
were no funds requested?
    Secretary Payton and General Kehler. Gap analyses on Milstar and 
AEHF 1-3 showed there was no urgency to procure SV4 in FY09. Funding 
AEHF-4 in FY10 allows the Department to meet Congressional intent to 
produce the 4th AEHF and maintain communications capability. There is 
an on-going study within the Department of Defense to determine the 
MILSATCOM way-ahead within fiscal constraints.
    Ms. Tauscher. Mr. Payton and General Kehler, TSAT is a keystone 
system in the DOD's future communications architecture providing 
wideband protected communications and communications-on-the-move 
capabilities. However, this year, the DOD and the Air Force have 
removed $4.0 billion out of the TSAT program and delayed the launch 
date from FY 2016 to FY 2018.What has changed in the Air Force 
portfolio that TSAT is no longer a critical program? What were the 
higher priority needs that required the funds from TSAT? Describe the 
planned users of TSAT. What impact do the $4 billion cut and schedule 
delays have on planned users of TSAT? Given the proliferation of SATCOM 
jamming systems, how important are the protected communications 
features of TSAT? Can these features be incorporated into other SATCOM 
systems?
    Secretary Payton and General Kehler. The Department remains 
committed to acquiring the communications capabilities required to 
achieve the 21st Century net-centric warfighting vision. Responding to 
Congressional direction, the FY09 President's Budget Request provides 
full funding for AEHF-4 in FY10 while remaining committed to providing 
future TSAT capabilities. The on-going MILSATCOM study will provide us 
with a roadmap to address future communication requirements, especially 
as the needs of the planned users continue to evolve. The planned users 
include all Services--Army ground forces, Navy and Marine forces and 
airborne ISR.
    While the reduction to the TSAT baseline delays first launch until 
the 2018 timeframe, strategic users requiring survivable and endurable 
communications have worldwide coverage until 2021 using the Milstar and 
AEHF constellations. The transformational capabilities provided by 
TSAT, including communications on the move, more protected 
communications, greater number of and higher rate communications paths 
and finally net-centric capabilities, will be delayed. However, the 
MILSATCOM study continues to evaluate various options to address these 
issues.
    Today's commercial SATCOM systems plus DOD assets such as the WGS 
system are susceptible to intentional jamming by relatively 
unsophisticated, inexpensive means. Ensuring the DOD satellite 
communications capabilities are endurable and survivable have long been 
a requirement of strategic SATCOM users. These users require systems 
that provide anti-jam communications, nuclear survivability, and Low 
Probability of Intercept/Low Probability of Detection communications. 
These capabilities are built into the Milstar satellites on orbit today 
and the AEHF system planned for 2009 first launch. TSAT will provide 
continuity beyond Milstar and AEHF for these users and also 
significantly increase the quantity and capability of protected SATCOM 
links to strategic and tactical users. Incorporating the features 
planned for TSAT onto the WGS or AEHF satellites would be very 
expensive and result in delays to deployment of these next generation 
systems as both systems are far beyond the design phase.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, please 
describe the problems encountered on the Space-based Infrared System 
(SBIRS)-High program. What are the plans to resolve these problems and 
what are the schedule and cost impacts? Would a schedule delay increase 
the risk of a missile warning gap?
    Secretary Payton and General Kehler. In late summer 2007, 
shortcomings in the SBIRS flight software subsystem (FSS) were 
identified, requiring a realignment of functions between two flight 
computers and software code rework. Additionally, both internal and 
independent teams determined that streamlining the code logic, i.e. 
deleting code not required for the operation of the SBIRS satellite, 
could improve the efficiency and timeliness of code execution.
    The flight software subsystem (FSS) recovery plan is divided into 
two blocks. Block I code was delivered on May 17, 2008 and is currently 
in test. An Interim Design Review for the Block II code was completed 
on April 2, 2008 and the development team is now proceeding with Block 
II coding. Block II code delivery is scheduled for August 28, 2008.
    With regard to the schedule and cost impacts, the FY2009 
President's Budget (PB) projects launch of the first GEO satellite for 
December 2009, which is an approximate one year delay to the previous 
launch date. As a result, the FY2009 PB includes approximately $400M 
across the FYDP (FY09-13) to account for this one year delay to the 
overall program completion.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, the 
planned launch for the first GPS-III satellite has slipped one year 
from FY 2013 to FY 2014. What caused this delay and what is the risk of 
a potential GPS gap between the last GPS-IIF launch and first GPS-III 
launch?
    Secretary Payton and General Kehler. The first launch for GPS IIIA 
has slipped from FY13 to FY14 due to a delay in the GPS IIIA contract 
award to May 15, 2008 (first launch is scheduled 72 months following 
contract award). Key factors were the finalizing requirements for the 
incremental acquisition and resolution of a potential contractor 
dispute regarding the prior MUOS source selection.
    The risk of a PNT gap between the last GPS IIF and first GPS IIIA 
is low. The launch of the first GPS III satellite is currently 
scheduled approximately 6 months after the launch of the last GPS IIF 
satellite in October 2013 and Air Force Space Command has developed 
Tactics, Techniques and Procedures (TTP) that could be employed to 
further mitigate risk.
    Ms. Tauscher. Mr. Payton and General Kehler, last year the Air 
Force proposed acquiring GPS III capability in three blocks. Has the 
acquisition approach been finalized and agreement reached with the user 
community on the capabilities in each block?
    Secretary Payton and General Kehler. The GPS III program of record, 
as approved by OSD(AT&L), is based on acquiring three blocks of 
satellites. GPS III requirements are documented in the GPS III 
Capabilities Development Document (CDD) approved by the Joint 
Requirements Oversight Council (JROC) in July 2007, as updated by the 
interim CDD (iCDD) which the JROC approved in October 2007. These 
documents validate requirements for GPS IIIA and define the desired 
capabilities for GPS Blocks IIIB and IIIC.
    Requirements for GPS Blocks IIIB and IIIC will be reviewed prior to 
initiating development on each respective block and, if necessary, the 
Air Force will update the CDD to reflect any required changes and bring 
the new/modified requirements to the JROC for validation.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, the 
committee understands the Space Radar program has been restructure in 
response to Congressional concerns about affordability, requirements, 
technology maturity, and concepts of operation (CONOPS). Please 
describe your view of the restructure, the level of commitment from the 
DOD and intelligence community, and the status of the analysis of 
alternatives study requested in the FY08 defense authorization bill.
    Secretary Payton and General Kehler. We are working closely with 
our Intelligence Community (IC) partners to leverage the lessons 
learned and the solid technology maturation performed to date. Any 
Joint Future Overhead Radar Program must meet the requirements of the 
DOD, IC, and coalition partners, while being acquired in affordable 
increments of capability. Additionally, we must ensure that the system 
can provide the high-quality and timely information needed to support 
senior leaders.
    The Intelligence Collection Architecture (ICA) process we are 
participating in offers a vehicle to analyze user needs and acquisition 
options to include the possibility of a tiered architecture similar to 
the one recently recommended for Electro-Optical systems. A tiered 
approach works best when all tiers are synchronized. Each element 
provides commonly accessible information while appropriately optimizing 
(or focusing) on the primary consumer of that tier.
    The jointly led ICA, co-chaired by USD(I) and ODNI, plans to report 
the results of this radar needs study this summer. These inputs will 
inform an analysis of the available alternatives to satisfy the 
identified and revalidated user needs. The results of the analysis of 
alternatives are scheduled to be finalized before the end of FY08.
    We are committed to developing this capability, as are our IC 
mission partners.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, please 
describe the potential operational concepts and value that 
``operationally responsive'' space (ORS) solutions provides to the 
joint forces. What is your assessment of the ORS program office 
implementation and its responsiveness to warfighter needs?
    Secretary Payton and General Kehler. The ORS Office is developing 
architectural and system concepts to enable rapid reconstitution or 
augmentation of space capabilities, to support the warfighter. For 
example, the ORS Office is developing a modular, open systems 
architecture for spacecraft that should greatly reduce the cost and 
time required to integrate new space capabilities. The ORS Office is 
also maturing the supporting ORS enabling capabilities, including 
launch systems, ranges, payloads, satellite buses, and Tasking, 
Collection, Processing, Exploitation, and Dissemination (TCPED) that 
are critical components in delivering responsive space capabilities to 
warfighters.
    The current ORS office structure is well suited to performing dual 
missions of: 1) responding to current Joint Force Commander's needs, as 
prioritized by Commander, U.S. Strategic Command; and 2) building a 
national strategic capability to responsively provide a robust space 
reconstitution and augmentation capability by 2015.
    Ms. Tauscher. Mr. Payton and General Kehler, do you believe the 
current management reporting chain for the ORS program office provides 
the greatest flexibility or should they be moved under Air Force Space 
Command to better reflect the warfighter's requirements?
    Secretary Payton and General Kehler. The current management 
reporting chain for the joint ORS Office provides great flexibility as 
well as a clear tie to warfighter requirements. As Congress intended, 
the ORS Office operates under the authority, direction, and control of 
the Department of Defense (DOD) Executive Agent (EA) for Space, with 
the Director of the ORS Office reporting directly to the DOD EA for 
Space. Additionally, the ORS Office works closely with United States 
Strategic Command (USSTRATCOM), whose Commander is responsible for 
validating and prioritizing the ORS requirements of all Combatant 
Commanders.
    The focus of ORS is on developing architectural concepts and 
enabling technologies to responsively provide a robust national space 
reconstitution and augmentation capability by 2015. The joint office 
with an abbreviated chain of command provides the opportunity to 
maximize the contributions of the services and agencies. At the same 
time, the ORS Office continues to provide support to USSTRATCOM in 
identifying alternatives and actions required to support the Urgent 
Operational Needs of the warfighters.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, space 
acquisition has a poor history of performance. What is your assessment 
of the current state of space acquisition and what indicators do you 
use to make this assessment?
    Secretary Payton and General Kehler. The state of space acquisition 
is improving. Over the last 12 months, we have several demonstrated 
successes: a new record of 58 consecutive successful Medium and Heavy 
National Security Space (NSS) launches; deployed the first Wideband 
Global Satellite (WGS) for operational use; and launched and begun 
operations on two GPS IIR-M satellites. In October 2007, we implemented 
a new GPS ground segment with no impact to PNT services.
    We recognize challenges remain with cost growth and schedule 
impacts in some areas of space acquisition and are actively pursuing 
solutions. Our efforts are guided by a Back-to-Basics philosophy 
identifying clear requirements and applying disciplined systems 
engineering and effective management/planning, while providing the 
program manager the appropriate resources to ensure success.
    Historically, programs perform better when they have clear, stable 
requirements, technology at the appropriate level of maturity, and 
high-confidence cost estimates early in the acquisition process. We 
continue to focus on these areas, and are starting to see indications 
that this approach is working. For example, GPS IIIA and FAB-T recently 
completed independent technology assessments supporting their 
transition to Preliminary Design Phase.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, 
affordability and executability of space programs is a bipartisan 
committee concern. Do you think the National Security Space programs 
have adequate funding to make sure they can be executed in a timely 
manner in support of the various missions?
    Secretary Payton and General Kehler. Yes, the funds requested for 
National Security Space programs in the FY09 President's Budget reflect 
our commitment to ensuring continuity of mission across the entire 
portfolio. Specifically, the FY09 budget request supports the near-term 
delivery of additional capabilities in Missile Warning, MILSATCOM, 
Position, Navigation, and Timing (PNT), and Space Situational 
Awareness. Simultaneously, the FY09 budget request continues investment 
in transformational MILSATCOM and next-generation PNT to ensure we can 
meet growing joint warfighter demand for these services.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, what do 
you see as the limiting technology in future conflict scenarios? How 
are space science and technology investments addressing this need?
    Secretary Payton and General Kehler. Air Force Policy Directive 61-
1, ``Management of Science and Technology,'' requires Air Force Space 
Command (AFSPC) to provide requirements and recommended program 
guidance/direction to the Air Force Research Laboratory (AFRL) for 
consideration in planning and programming for Space Science and 
Technology (S&T) investments. To meet this requirement, AFSPC produces 
a Space S&T guidance document that identifies the limiting technologies 
needed to acquire the warfighting capabilities necessary to meet 
AFSPC's vision and also prioritizes technologies for AFRL 
consideration. AFSPC's most recent Space S&T guidance identified key 
limiting technologies in space situational awareness (SSA); the ability 
to provide rapid, responsive space capabilities; strategic deterrence; 
and next-generation pervasive space technologies. As AFRL's proposed 
Space S&T investments ultimately make their way forward for Air Staff 
consideration and incorporation into the annual President's Budget 
request, AFSPC, Space and Missiles Systems Center (SMC), and Air Force 
Materiel Command (AFMC) all have an opportunity to assess how these 
planned investments address future technology needs as identified by 
AFSPC.
    Currently, Air Force S&T investments provide for a range of 
technologies to find, fix, characterize, and track new and existing 
space objects in support of SSA; concentrate on plug-and-play 
technologies, spacecraft autonomy, and automated design tools closely 
integrated with the Operationally Responsive Space vision to enable 
responsive space capabilities; focus on developing and demonstrating 
more reliable, more accurate, and less expensive guidance components/
systems, coupled with research in advanced propulsion, plasma effects 
and mitigation, and seismic data, to provide for strategic deterrence; 
and support a variety of pervasive technologies to include radiation-
hardened electronics/processors, solar cells, focal plane arrays and 
cryocoolers, high-temperature materials, and guidance, navigation, and 
control.
    Ms. Tauscher. Mr. Payton and General Kehler, the Space and Missile 
Systems Center is looking at standing up an organization with new 
acquisition processes that will focus on technical and operational 
demonstrations while emphasizing innovation and flexibility. Please 
describe this organization further, the expected value and benefits, 
and tell us where you intend to put this organization.
    Secretary Payton and General Kehler. The Space and Missile Systems 
Center (SMC) is actually consolidating early demonstration activities 
into the existing Development Planning (SMC/XR) office at Los Angeles 
AFB and the Space Development and Test Wing (SDTW) at Kirtland AFB, New 
Mexico, rather than standing up a new organization. SMC/XR and the SDTW 
will leverage current and future efforts, to include the Space Test 
Program and Operationally Responsive Space (ORS) efforts. The 
acquisition processes these offices will follow are not new, but 
represent a disciplined, structured approach of complete, up-front 
concept and systems engineering prior to program initiation.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, in 2007, 
the Australian Government agreed to invest in the Wideband Global 
System (WGS). Where are there other opportunities across the space 
portfolio for greater international cooperation?
    Secretary Payton and General Kehler. Historically, Australia (AUS), 
United Kingdom (UK) and Canada (CAN) have all been involved with the 
Air Force in many facets of the space mission, dating back to the late 
1950s, early 1960s. These Allies, along with others, participate in 
missile warning; space situational awareness; positioning, navigation 
and timing (PNT); and communications systems.
    The U.S. has a long history of missile warning cooperation with all 
three partners. We have mutual defense cooperative agreements covering 
existing Defense Support Program and Space-based Infrared Systems and 
Integrated Tactical Warning/Attack Assessment agreements.
    In addition to the success of the Wideband Global SATCOM System 
arrangement with Australia, we have active Allied participation with 
the UK, CAN and the Netherlands regarding the Advanced Extremely High 
Frequency (AEHF) communication system. Additionally, over the years the 
U.S. and the UK have shared capacity on the UK SKYNET and the U.S. 
Defense Satellite Communications System (DSCS) programs.
    Positioning, navigation and timing are extremely critical and GPS 
is the world standard. To foster further collaboration on this 
essential capability, we have integrated officers from AUS, CAN, 
Germany and France into GPS Program Office. Additionally, there are 
numerous efforts underway in the area of GPS equipment development and 
CONOPS cooperation, with interoperability and coalition warfighter 
support as key ingredients.
    Finally, regarding Space Situational Awareness we have longstanding 
relationships with several of our key Allies (UK, CAN) and are building 
the foundations with others to cooperate and integrate resources in 
this mission area.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, what are 
the merits of ``rules of the road'' in space or other international 
regimes to promote the safe and responsible use of space?
    Secretary Payton and General Kehler. The U.S. carefully upholds its 
obligations under the four principle international agreements on 
space--the Outer Space Treaty, the Rescue and Return Agreement, the 
Liability Convention and the Registration Convention. In fact, we have 
advocated universal adoption of these measures. We believe that there 
is no need for any additional treaty on space and do not see any 
problems for arms control to resolve. Given that the use of space is 
growing and likely will continue to grow, we believe there is value in 
exploring ways that the various users can act responsibly in space. 
Rather than using the term ``rules of the road,'' which implies legally 
binding terms, we instead support efforts being considered through the 
UN Committee on the Peaceful Use of Outer Space (UNCOPUOS) to look at 
``best practice guidelines'' for safe space operations. We believe that 
the community of space-faring nations could constructively share their 
``best practices'' and together a set of voluntary guidelines would 
serve the broad interests of all nations.
    While we are determined to keep sufficient flexibility to protect 
national security interests, we also recognize that some emerging 
challenges to space activities can require new forms of international 
cooperation with allies, friends, and other responsible space-faring 
nations to preserve the principle of unhindered access to, and 
operations in and through, space by all nations for peaceful purposes. 
We are witnessing a period of unprecedented cooperation in space. As a 
result, we believe that the establishment of best practice guidelines 
is the appropriate tool.
    Pursuing best practice guidelines avoids the rigid and drawn out 
negotiation processes that are often characterized by undercurrents of 
differing political agendas. A notable success in the establishment of 
best practice guidelines is in the area of debris mitigation. This 
stands in sharp contrast to difficulties in international negotiating 
settings like the Conference on Disarmament where for years the 
progress on key objectives has been held hostage by a small number of 
countries linking unrelated issues. There is considerable dynamism in 
space operations as a result of the inexorable march of technology. The 
best practice guidelines approach has the flexibility to evolve in step 
with technical advancements.
    Today there is a rich array of space operators from individual 
nations, international consortia to commercial operators large and 
small. Pursuing best practices guidelines provides a setting within 
which all participants who have something to offer can contribute.
    Ms. Tauscher. Mr. Payton and General Kehler, the Missile Defense 
Agency (MDA) is developing the Space Tracking and Surveillance System 
(STSS) and has other ongoing space activities. How is your office 
involved in coordinating MDA's space programs with the rest of the 
Department?
    Secretary Payton and General Kehler. The Air Force has a close 
relationship with the Missile Defense Agency on multiple levels. The 
Under Secretary of the Air Force is the Air Force principal at the 
Missile Defense Executive Board, the senior DOD body on ballistic 
missile defense. The Under Secretary of the Air Force is also a co-
chair, along with the Assistant Secretary of the Air Force for 
Acquisition, the Air Force Deputy Chief of Staff for Air, Space, and 
Cyber Operations, and the MDA Director, on the AF-MDA Board of 
Directors (BoD). The BoD keeps the Air Force leadership fully informed 
of MDA activities and serves as a forum for addressing AF-MDA issues.
    AFSPC is engaged with MDA in preparing STSS experimentation plans 
for space situational awareness, technical intelligence, and 
battlespace awareness, and annual AFSPC/MDA focus days further promote 
collaboration on space activities.
    Ms. Tauscher. Mr. Payton and General Kehler, MDA has developed or 
plans to develop several land, sea, and space-based sensors, such as 
the Sea-Based X-band (SBX) radar, Upgraded Early Warning Radars, and 
STSS. What utility might these sensors have for providing space 
situational awareness?
    Secretary Payton and General Kehler. The new MDA X-band radars have 
the ability to enhance the space situational awareness (SSA) mission. 
In particular, the Sea-Based X-band radar has two possible benefits for 
SSA; it is well-suited toward characterizing space objects and it can 
be positioned geographically where we currently have no SSA ability.
    Additionally, the Upgraded Early Warning Radar (UEWR) program is 
upgrading both the PAVE Phased Array Warning System (PAVE PAWS) and the 
Ballistic Missile Early Warning System (BMEWS) radars that currently 
support the SSA mission. The UEWR program adds the potential for 
improved space object characterization, while also adding multi-mode 
flexibility which will enable those radars to perform their missile 
defense and SSA missions simultaneously. Used in conjunction with the 
Global Sensor Integrated Network (GSIN) initiative and a MDA net-
centric architecture, the UEWR sites could inject data directly into 
the AFSPC net-centric services to tie legacy and non-traditional 
sensors together in an interoperable unified framework. AFSPC is 
currently funding the SSA sensor fusion, data dissemination, and 
command and control efforts through the Integrated Space Situational 
Awareness (ISSA) and Space C2 programs. The end goal is to evolve 
current SSA fusion demonstrations into tailored products for end users.
    MDA is also developing the Space-based Tracking and Surveillance 
System (STSS) to track, surveil and self-cue space events, enabling us 
to gain custody of new launches very early in the process and alert/cue 
other sensors sooner.
    To aid future system development, AFSPC is constructing a National 
SSA Roadmap to be used as an interim SSA architecture in response to 
National Space Policy guidance. This effort includes MDA and the 
contributions their sensors will bring to an integrated solution.
    Ms. Tauscher. Mr. Payton and General Kehler, the Air Force is 
undergoing a ``force shaping'' effort to downsize its personnel by 
40,000 by the end of Fiscal Year 2009. Operations personnel will see a 
nine percent reduction and Acquisition personnel will see a four 
percent reduction. How does this personnel reduction impact the space 
operations and acquisition missions? To what extent will your 
contractor support workforce be affected?
    Secretary Payton and General Kehler. We were able to mitigate the 
impact of Program Budget Decision (PBD) 720 reductions to the Command's 
operations and acquisition missions. Air Force Space Command (AFSPC) 
reduced active duty end strength by 1,670 positions, and incurred a 
civilian reduction (180 positions) and a contract dollar reduction in 
excess of $1.03B across the Future Years Defense Plan (FYDP). We 
mitigated the impact to the operations and acquisition missions by 
shifting the reductions to other career fields. Only eight percent of 
our active duty manpower reduction were incurred in the operations/
acquisition specialties--100 space operator positions and 55 
acquisition officer and civilian billets were deleted. While only 55 
Space and Missile Systems Center (SMC) acquisition billets were cut, 
124 acquisition-qualified officers accepted voluntary separations.
    The dollar reductions also impacted our contractor workforce. 
Advisory and Assistance Services and Systems Engineering Technical 
Advisory contracts were particularly impacted at SMC locations. Our 
AFSPC wings also suffered, as they rely on Operations and Maintenance 
contracts for base operating and mission support.
    While this drawdown does cause temporary turmoil, it is necessary 
to ensure resources are available to recapitalize our air and space 
systems.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, how would 
you describe the rationale for the February 20th intercept of the 
failed U.S. satellite?
    Mr. Large. The satellite in question failed shortly after its 
launch in December 2006, an uncontrolled reentry was inevitable. The 
rationale for the 20 February 2008 intercept of the satellite was 
always to mitigate the potentially harmful effects of the 1,000 pounds 
of hydrazine propellant aboard the spacecraft. There was a significant 
concern that the titanium propellant tank and much of the full load of 
toxic fuel would survive the uncontrolled reentry, posing a very real 
danger to human life across much of the inhabited portions of the 
Earth. For that reason the President of the United States decided to 
take proactive action, appropriate for a responsible space-faring 
nation, to reduce the risk to people and property by ordering a missile 
intercept of the non-functioning, decaying satellite under strictly 
controlled conditions.
    Ms. Tauscher. Mr. Large, what you can tell us about the failure of 
the satellite? Has DOD been able to ascertain why it failed so quickly 
after reaching orbit?
    Mr. Large. No. After an exhaustive formal failure investigation, 
and three different independent review team investigations, the cause 
of the failure and what failed was not determined. The failure 
signature suggested that abrupt, multiple failures occurred. The formal 
investigation was conducted over a ten month period and included over 
30 different organizations from government, industry, national labs and 
academia.
    Ms. Tauscher. Mr. Large, do you see technical and/or design 
problems associated with the recently destroyed U.S. satellite that can 
be fixed in future satellite system designs?
    Mr. Large. Although our exhaustive analysis of the spacecraft 
design and test program did not identify the root cause of the failure, 
it did identify several opportunities to make improvements in mission 
assurance standards which have been addressed in the requirements for 
current and future satellite programs.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, the 
Pentagon's annual China military modernization report will be released 
March 3rd and is expected to build upon last year's report that China 
continues to develop a multi-dimensional counterspace program. What 
implications do these developments have on our national security space 
posture?
    Mr. Large. Space capabilities have become integrated into our daily 
lives and are vital to our national security and the global economy. At 
the same time, potential adversaries continue to seek means to counter 
the advantages we obtain from space and to use space capabilities 
against us. Our space capabilities face a wide range of growing threats 
including radio frequency jamming, laser blinding and anti-satellite 
systems. The threat exists end-to-end and requires a new way of 
thinking and a new way of addressing the challenges facing the space 
community.
    The maturation of these threats, including China's anti-satellite 
capability, require a broad range of capabilities, from diplomatic to 
military, to protect our interest in space. We are working with the 
interagency to assess the strategic implications of China's maturing 
counterspace capabilities in the context their overall military 
modernization effort. The recommendations from this on-going assessment 
are carefully factored into our space systems architecture planning and 
resulting investment priorities. Our investment strategy for space and 
space-related activities is a balanced approach to achieving these 
capabilities. Our space control investment strategy, for example, 
balances the need for space situational awareness, protection of our 
space capabilities and protection of terrestrial forces and the 
homeland from threats posed by adversarial use of space.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, how should 
the investment strategy be restructured across the Air Force and NRO 
space portfolios to avoid single-point vulnerabilities as highlighted 
by the Chinese ASAT test last year? Doe the 2009 budget request reflect 
any programmatic or operational changes?
    Mr. Large. The operational and programmatic implications of China's 
anti-satellite (ASAT) test and other counterspace capabilities require 
thorough and deliberate examination. Our space capabilities face a wide 
range of threats including radio frequency jamming, laser blinding, as 
well as ASAT systems. The maturation of these threats, including 
China's anti-satellite capability, require a broad range of 
capabilities, from diplomatic to military, to protect our interests in 
space. Such a manifest approach to address counterspace threats 
requires a national-level strategy.
    For our part, the National Space Policy acknowledges that space is 
vital to U.S. National security and directs the Department of Defense 
(DOD) to develop capabilities, plans, and options to address these 
threats to our national security space systems. The National 
Reconnaissance Office (NRO) is working with U.S. Strategic Command 
(USSTRATCOM) and the Intelligence Community (IC) to better understand 
the nature of the threat to our space systems. The assessment of the 
strategic implications of China's maturing counterspace capabilities is 
currently on-going. Once complete, the recommendations of this 
assessment will be carefully factored into the national security space 
systems architecture--including both Air Force and NRO programs--and 
their associated investment priorities.
    Ms. Tauscher. Mr. Large, what type of space situational awareness 
(SSA) and space protection capabilities do you think will be needed in 
the future to combat threats to space?
    Mr. Large. A broad range of capabilities, from diplomatic to 
military are required to protect our interest in space. The National 
Space Policy directs the DOD to develop capabilities, plans, and 
options to ensure freedom of action in space. In implementing this 
National Policy, the DOD will continue to:

    --   Encourage all nations adhere to established principles 
outlined in current treaties and international agreements for the 
peaceful use of space by all nations;

    --   Promote responsible behavior and safe space operations by 
supporting space situational awareness needs of all peaceful space 
users; lead efforts to develop guidelines for responsible behavior in 
space such as guidelines for debris mitigation and collision avoidance; 
and cooperate with other counties on the peaceful uses of outer space;

    --   Modernize space situational awareness capabilities to ensure 
ample waning of hostile acts and improve protection plans to ensure 
required capabilities are available in a contested space environment--
includes the use of ground-based radars, optical telescopes, low Earth 
orbiting systems with capability to detect small objects out to 
geosynchronous orbit; and means of making each satellite its own sensor 
and capable of monitoring its health and status and detecting any 
anomalous activity;

    --   Develop architectural solutions, including Operationally 
Responsive Space concepts, to ensure capabilities are available when 
needed;

    --   Establish an operations posture, to include appropriate 
planning and exercises, to respond to attacks on U.S. space interests 
and to ensure required space capabilities are available in a contested 
environment; and

    Ensure capabilities are available to deny adversaries the use of 
space advantages to ensure our terrestrial forces and homelands remain 
safe.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, we 
understand the Chinese ASAT test was a good example of how intelligence 
was ``operationalized'' to provide near real-time support to military 
users. As threats to space increase, so too will the demand for greater 
space intelligence support and resources. How does NRO plan to address 
this requirement?
    Mr. Large. One significant step in space protection is the key role 
the NRO is taking, in concert with USSTRATCOM and Air Force Space 
Command, in laying the foundation for defensive space capabilities. 
Such capabilities, while vital to our space systems survival, have also 
helped establish a framework for further cooperation.
    The complete protection picture also requires we take a careful 
look at the vulnerabilities on the ground as well as those in space; 
these vulnerabilities take many forms. As the NRO plays an increasingly 
visible role in the defense of our Nation, we can also expect to 
increasingly become a target as well. The NRO is committed to 
protecting the information and assets that help us maintain our 
Nation's freedom and security.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, the FY 
2008 National Defense Authorization Act directed the Secretary of 
Defense and Director of National Intelligence to develop a space 
protection strategy. What do you see as the key challenges in this 
area? Are they material or non-material?
    Mr. Large. Our nation currently is completing a comprehensive 
protection and survivability strategy for space--one that spans the 
defense and intelligence communities and addresses policy and strategy, 
architecture planning, system acquisition and requirements definition, 
science and technology development, and training and operations--and is 
to be delivered to Congress in July 2008. The implementation actions 
for this strategy cover material and non-material initiatives.

    --   The key challenges in the development of a space protection 
strategy include:

    --   Balancing all appropriate elements of national power 
(diplomatic, informational, military, and economic)--to reduce risks in 
all domains (land, sea, air, space, and cyber) and deter the deployment 
of threatening capabilities; (Material & Non-material)

    --   Lack of funded requirements for protection of all essential 
National space assets; (Material)

    --   Congressional oversight over this issue is fragmented among 
the Science, Defense, International Relations, and Intelligence 
Committees; and (Non-Material)

    --   New or additional legal regimes or arms control agreements 
related to space ``weaponization'' may complicate our ability to 
protect U.S. national security interests. (Non-Material)

    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, what is 
the Department's overall protection strategy for assured access to 
space? How does DOD examine and analyze the benefits and cost of 
different strategies? Given the historical experience during the Cold 
War, can space systems be cost-effectively protected?

    Mr. Large. A. What is the Department's overall protection strategy 
for assured access to space?

        Defer to Air Force Space Command

    B. How does DOD examine and analyze the benefits and costs of 
different strategies?

         Benefit and cost analyses are based on capabilities derived 
        from user needs, technical maturity/viability, and the 
        analytical community's assessments of the threats that must be 
        mitigated. These recommendations are done at the architectural 
        level and shared with the Joint Requirements Oversight Council 
        and Mission Requirements Board and then implemented by the 
        appropriate program offices.

    C. Given the historical experience during the Cold War, can space 
systems be cost effectively protected?

         Cost effectiveness is related to national security 
        consequences that are realized if no protection action is 
        taken.

         A broad range of protection options covering diplomatic, 
        information, military, and economic actions can be employed in 
        cost-effective manner. Experience shows that if a design 
        requirement is added to a system at the earliest stages of 
        concept design costs are manageable; however introduction late 
        in development results in cost increasing dramatically.

    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, 
historically, SATCOM requirements exceed the capacity of our government 
systems. To make up the difference, the military spends over $400 
million a year for commercial SATCOM. In Operation Iraqi Freedom over 
80% of our military SATCOM requirements were met by commercial 
carriers. Does national security require the development of a 
Commercial Satellite Communications Policy much like the National 
Remote Sensing Policy? What are we doing to ensure our warfighters are 
getting the necessary communications capability in a timely and cost 
effective manner?
    Mr. Large. To provide additional communications capability to the 
warfighter, we are building and launching secondary payloads on our 
National Systems to transmit critical intelligence information directly 
to deployed forces. Using this approach, we can deliver the 
communications capability in a very cost-effective manner.
    NRO/COMM provides Tactical Communications to warfighter with use of 
the Exercise and Operational Communications System (XOCOMM) and 
Integrated Broadcast Service Simplex (IBS-S).
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, what is 
your assessment of the synchronization between the launch of military 
SATCOM systems and the fielding of compatible user terminals? How are 
you ensuring that user terminals are fielded to keep pace with new 
capabilities introduced on WGS (already on-orbit), AEHF (1QFY09), and 
the Navy's MUOS (FY 2010)?
    Mr. Large. Defer to General Kehler and/or Mr. Payton.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, please 
describe the problems encountered on the Space-based Infrared System 
(SBIRS)-High program. What are the plans to resolve these problems and 
what are the schedule and cost impacts? Would a schedule delay increase 
the risk of a missile warning gap?
    Mr. Large. We respectfully defer to the Air Force.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, the 
planned launch for the first GPS-III satellite has slipped one year 
from FY 2013 to FY 2014. What caused this delay and what is the risk of 
a potential GPS gap between the last GPS-IIF launch and first GPS-III 
launch?
    Mr. Large. Defer to Air Force Space Command.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, the 
committee understands the Space Radar program has been restructure in 
response to Congressional concerns about affordability, requirements, 
technology maturity, and concepts of operation (CONOPS). Please 
describe your view of the restructure, the level of commitment from the 
DOD and intelligence community, and the status of the analysis of 
alternatives study requested in the FY08 defense authorization bill.
    Mr. Large. The NRO is working closely with the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, the Under Secretary 
of Defense for Intelligence and the Office of the Director of National 
Intelligence on the Space Radar restructure. Support for the 
restructured way ahead has been strong within both the DOD and the IC.
    This restructure includes standing up a Joint Future Overhead Radar 
(JFOR) program office within the NRO, examining application of 
commercial and international radar data and/or systems meeting some DOD 
requirements and other near-term efforts. The JFOR activity is being 
defined through ongoing efforts including the Integrated Collection 
Architecture (ICA) and Radar Analysis of Alternatives (AoA) studies.
    The ICA GEOINT Balance Team (GBT) will be providing interim results 
and data that will enable us to kick-off the Radar AoA in May. The 
remainder of the GBT activity and the AoA are expected to provide 
results in September 2008.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, please 
describe the potential operational concepts and value that 
``operationally responsive'' space (ORS) solutions provides to the 
joint forces. What is your assessment of the ORS program office 
implementation and its responsiveness to warfighter needs?
    Mr. Large. The Implementation Plan (approved by DepSecDef 28 Apr 
2008) identifies the DOD processes and staffing resources for 
operationally responsive space (ORS) and serves as the initial charter 
for the ORS Office. To make an assessment on the ORS Office's 
implementation and responsiveness maybe be a bit premature. Since its 
establishment and standup in FY 2007, the ORS Office has been engaged 
with the IC, DOD, and the Services on ORS proposals to develop space 
based solutions to support the Warfighter's urgent needs. Over time, 
the Warfighter will be able to truly assess ORS Office's effectiveness 
and its ability to rapidly respond to the Combatant Commanders 
(COCOM's) needs as well as facilitating integrated ORS concepts and 
solutions.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, space 
acquisition has a poor history of performance. What is your assessment 
of the current state of space acquisition and what indicators do you 
use to make this assessment?
    Mr. Large. The era of Acquisition Reform is over. It has left the 
NRO in a fragile state with a poor history of performance.
    Recently the space community has recognized its shortcomings and 
has pulled together to set new standards and strengthen acquisition 
execution, with emphasis on gated processes, mission assurance, and 
test-like-you fly verification. As these measures take effect, we will 
monitor the number of problems that surface after the control gate that 
should have caught them and focus on further process improvements to 
discover and resolve issues earlier in the acquisition lifecycle.
    In addition, the NRO has taken action to internally establish a 
strong corporate governance model to support critical business 
processes. The first priority was our acquisition management and the 
system engineering processes. This process definition is coupled with 
clearly defined leader roles, responsibilities, authority, and 
accountability. These actions will begin to reverse the damage brought 
by acquisition reform. Clearly our recovery from ten plus years of 
acquisition reform will take time, but I'm confident that our people 
and contractors will meet this challenge.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, 
affordability and executability of space programs is a bipartisan 
committee concern. Do you think the National Security Space programs 
have adequate funding to make sure they can be executed in a timely 
manner in support of the various missions?
    Mr. Large. The NRO operates under the DNI guidance by funding 
programs to the DNI Cost Analysis Improvement Group Independent Cost 
Estimate (ICE). For current NRO programs, adequate funding is available 
to cover the ICEs. The current FY 2009 President's Budget also contains 
programs in early acquisition stages where an ICE has not yet been 
performed. Emerging programs are adequately funded in the request and 
will be subsequently addressed when ICEs are performed.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, what do 
you see as the limiting technology in future conflict scenarios? How 
are space science and technology investments addressing this need?
    Mr. Large. History cautions us to be wary of defining future 
conflict scenarios. If there is one thing we can be sure of, it is the 
fact future conflicts will take unexpected paths. For this reason, our 
space science and technology investments are structured to anticipate 
the unexpected and to produce capabilities that will serve the broadest 
needs of our warfighters, civil agencies, and national decision makers 
in the widest range of contingencies.
    As uncertain as the future may be, we can anticipate several 
technology challenges. Among these challenges will be the evolution to 
more cyber, more wireless, and more encryption--along with the 
continuing demand for more bandwith. All of this will occur at a pace 
of more rapid evolution/revolution against a backdrop of less defined 
actors, targets that are more agile and more deeply imbedded, less 
predictable threats, and less sanctuary in space.
    To address these challenges, we have developed a science and 
technology investment strategy that emphasizes the development of 
capabilities embracing fundamental attributes that will allow us to 
deliver timely, accurate information in an adaptive, secure and 
survivable environment. Our portfolio includes technologies to increase 
overhead persistence, enhance area coverage and crate value-added pre-
processing. Our Science & Technology (S&T) investment program 
establishes the framework for integration of the entire intelligence, 
surveillance and reconnaissance enterprise in a service oriented 
architecture that fosters multi-INT collaboration and processing, while 
providing user access to required content with necessary security and 
confidence levels on timelines that support mission objectives.
    Some examples of these technology thrusts include investments in 
information technologies multi-INT services, the development of light 
weight optics and electronically steerable arrays. These capabilities 
could improve collection access, help the integration of multi-INT 
virtual mission centers to connect our expanding base of customers, and 
enhance collaboration with mission partners to solve the largest and 
most difficult intelligence problems.
    In summary, we're preparing for a challenging, unpredictable future 
by developing technologies to transform our processes from individual 
collection stovepipes to a services oriented architecture delivering 
timely, accurate information in an adaptive, secure and survivable 
environment, and enabling insertion of new capabilities on rapid 
timelines.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, in 2007, 
the Australian Government agreed to invest in the Wideband Global 
System (WGS). Where are there other opportunities across the space 
portfolio for greater international cooperation?
    Mr. Large. Defer to National Strategic Space Office within OSD.
    Ms. Tauscher. Mr. Payton, General Kehler, and Mr. Large, what are 
the merits of ``rules of the road'' in space or other international 
regimes to promote the safe and responsible use of space?
    Mr. Large. Our National Space Policy (NSPD-49) sets out specific 
policies which guide our use of space. Inherent within the policy are 
principles for safe and responsible space operations established by 
treaties to which the U.S. is a signatory. These international regimes 
include the Outer Space Treaty which sets a number of general operating 
principles for signatory countries that operate within space, and the 
Liability Convention which establishes specific rules for assessing 
damages within space and as a result of interference. These treaties 
are familiar to the countries which operate within space, and they 
generally abide by them. However, outer space has become a more 
complicated operating environment and we have learned a great deal 
about safe operating practices since those treaties were established 
nearly four decades ago.
    Today globalization is driving nations to modernize technologically 
and connect with the international community to achieve commercial and 
security goals. Space capabilities are seen as a means for states to 
benefit from commercial growth, improve national security, and obtain 
global prestige. As the ``space club'' grows there will be an 
inevitable increase in the amount of ``space traffic'' generated over 
time leading to a need among international stakeholders to conduct 
their space operations while ensuring that people, property, and goods 
are adequately protected. Satellites are generally costly and delicate 
instruments subject to interference both natural and man-made.
    `Rules-of-the-Road' can help reduce the prospect of operational 
misunderstandings arising between nations from instances where 
apparently provocative or threatening actions are observed but not 
readily explained. Similarly, rules can help reduce the possibility of 
on-orbit collisions and proliferation of deadly space debris.
    Ms. Tauscher. Mr. Large, despite being originally set up for 
national-level users, today more than 80% of the data that comes from 
the systems built by the NRO provide direct support to the warfighter. 
That is unlikely to change anytime soon. How does NRO ensure that its 
national intelligence satellites are integrated with the military's 
tasking, processing, exploitation, and dissemination (TPED) 
infrastructure and processes to ensure timely support for battlefield 
intelligence? How does NRO ensure that warfighter requirements are met 
and receive sufficient advocacy and funding during the development of 
new systems?
    Mr. Large. Since the lessons learned from the first Gulf War, the 
NRO has focused on delivering its data and data products to the 
Warfighter on responsive timelines. These efforts accelerated 
dramatically with beginning of the global war on terrorism following 9/
11, first through the fielding of more operational prototypes, followed 
by the Strategic Framework published in 2005, and now through the 
effort to transform the entire NRO focused on improving the content, 
access to, and timeliness of what we deliver.
    Our Mission Partners, National Geospatial-Intelligence Agency (NGA) 
and National Security Agency (NSA), have also had transformational 
efforts underway focused on the same goals delivering intelligence to 
that tactical user on more responsive timelines. We are working in 
close partnership with them to move toward an increasingly integrated 
ground system for tasking, collection, processing, exploitation, and 
dissemination, following guidelines, standards, and policies handed 
down from the joint efforts between the DNI and USD(I). Throughout 
these efforts, we are working across multiple systems engineering 
activities to ensure that our systems join seamlessly and securely to 
the DOD architectures (DCGS and the GIG) in which they are investing 
billions of dollars to deliver data worldwide to Warfighters.
    Regarding requirements for acquisition of systems, we work 
continuously with NSA's and NGA's community efforts to understand, 
document, and validate (through the IC's and DOD's processes) the 
requirements for each acquisition before it is approved. We also carry 
out extensive user engagement to educate the Warfighter on our 
capabilities, and understand the context in which they use our data.
    Ms. Tauscher. Mr. Large, do you think that the current joint space 
programs with the intelligence community are supporting the 
warfighter's intelligence requirements? How would you change the 
investment strategy to better support the warfighter in theater?
    Mr. Large. Yes. While we are not in a position to speak for the 
Joint Staff or STRATCOM as to how well their intelligence requirements 
are being met or what changes they recommend, I defer to the 
aforementioned entities to answer these questions. In response to the 
second question, NRO is now doing all things possible to invest in 
those programs that will deliver to the Warfighter continuously 
improving access, content and timeliness.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. EVERETT
    Mr. Everett. General Kehler and Mr. Large, I understand the Chinese 
ASAT test was a good example of how intelligence was 
``operationalized'' to provide near real-time support to military 
users. As threats to space increase, so too will the demand for greater 
space intelligence support and resources. How does the Department plan 
to address this requirement?
    General. Kehler. The space intelligence community coalesced to meet 
the operational challenges presented by the Chinese ASAT test. There 
remain a number of materiel and non-materiel measures that are being 
taken or considered in order to meet the future threat.
    Several initiatives have been taken to address the need for more 
and better qualified space intelligence analysts. Recent billet 
additions at AFSPC, NASIC, DIA and CIA have taken place through 
internal reallocations and external over guidance approval. NSA has 
reprioritized for better space analysis and USSTRATCOM J2 is 
reestablishing space analysis. Overall analytic resources will remain 
insufficient, despite the improvement cited above, and will require 
active efforts to increase efficiency and collaboration.
    AFSPC is hosting an interagency forum to review/refine intelligence 
shortfalls and to seek interagency solutions. AFSPC has also conducted 
a review of its sensors and capabilities to provide Space Situational 
Awareness (SSA) and has created a road map for improvement. Studies are 
underway to determine all potential contributors that will provide 
information and intelligence to support the characterization portion of 
SSA.
    A number of efforts are underway to make space collection and 
analysis more efficient. The Defense Intelligence Space Threat 
Committee under NASIC leadership has been established to oversee and 
coordinate a wide variety of complex space/counterspace analytical 
activities. The Air Force Intelligence, Surveillance and Reconnaissance 
Agency has begun the process of incorporating Air Force Space Command 
sensors and capabilities into an intelligence master plan. In addition, 
processes to automate space intelligence preparation of the battlespace 
and to transition to predictive battlespace awareness are well 
underway. Space/counterspace intelligence requirements have been 
revaluated and are now being reprioritized and rewritten to more 
clearly focus the intelligence community.
    Training is also a critical element of Air Force efforts to address 
adversary space threat. AFSPC recently expanded the Space Professional 
Development Program to include the Air Force intelligence community. 
The National Space Security Institute (NSSI) has begun a comprehensive 
review and expansion of Air Force Space Command's space professional 
training courses in close cooperation with the HQ AFSPC/A2 (ISR 
Directorate) and intelligence community at large.
    Mr. Everett. Mr. Payton and General Kehler, describe the planned 
users of TSAT. What impact do the $4 billion cut and schedule delays 
have on planned users of TSAT?
    Secretary Payton and General Kehler. The $4 billion reduction to 
the TSAT baseline delays initial launch capability approximately two 
years. Users requiring survivable, anti-jam, strategic communications 
will continue to have worldwide coverage through the Milstar and AEHF 
constellations through 2021, while the fielding of the Wideband Global 
SATCOM (WGS) constellation will greatly increase DOD's organic wideband 
communication capability. Particular impacts from the delay of TSAT's 
additional capabilities, including high data rate protected 
communications (XDR+) and protected Comm On The Move (COTM) for ground 
forces, are being assessed as part of the Deputy Secretary of Defense-
directed MILSATCOM Investment Strategy study. This study was initiated 
to reassess when the specific communication capabilities planned for 
TSAT are needed by the user community and to determine if there are 
solutions available to realistically deliver these capabilities in a 
more affordable manner than the current TSAT program. The Services and 
Combatant Commands are involved in this study, and findings and 
recommendations are expected to be briefed to the Deputies Advisory 
Working Group in June 2008.
    Mr. Everett. Mr. Payton and General Kehler, given the proliferation 
of SATCOM jamming systems, how important are the protected 
communications features of TSAT? Can these features be incorporated 
into other SATCOM systems?
    Secretary Payton and General Kehler. Critically important. 
Proliferation of SATCOM jammers and the understanding of their value in 
warfare is a growing threat. For relatively little money an 
unsophisticated adversary can put much of our unprotected 
communications at risk, with potentially grave consequences. Our most 
essential communications must be protected from jamming and, as our 
warfighting forces' information dependence grows, the requirement for 
anti-jam communications grows with it. Next year, the Advanced EHF 
system will begin supplanting Milstar to provide an order of magnitude 
increase in protected SATCOM capability. However, even that will fall 
short of needs within a decade and we must do more. TSAT will be sized 
and phased according to results of the ongoing DOD MILSATCOM investment 
strategy study to meet that greater need and to enable a leap forward 
in net-centric warfighting concepts. That study is considering whether 
some portion of the protected SATCOM mission can be satisfied by other 
programs. The Air Force will continue to meet warfighter requirements 
for protected communications via the SATCOM architecture the Department 
determines to be optimum.
    Mr. Everett. Mr. Payton and General Kehler, space acquisition has a 
poor history of performance. What is your assessment of the current 
state of space acquisition and what indicators do you use to make this 
assessment?
    Secretary Payton and General Kehler. The state of space acquisition 
is improving. Over the last 12 months, we have several demonstrated 
successes: a new record of 58 consecutive successful Medium and Heavy 
National Security Space (NSS) launches; deployed the first Wideband 
Global Satellite (WGS) for operational use; and launched and begun 
operations on two GPS IIR-M satellites. In October 2007, we implemented 
a new GPS ground segment with no impact to PNT services.
    We recognize challenges remain with cost growth and schedule 
impacts in some areas of space acquisition and are actively pursuing 
solutions. Our efforts are guided by a Back-to-Basics philosophy 
identifying clear requirements and applying disciplined systems 
engineering and effective management/planning, while providing the 
program manager the appropriate resources to ensure success.
    Historically, programs perform better when they have clear, stable 
requirements, technology at the appropriate level of maturity, and 
high-confidence cost estimates early in the acquisition process. We 
continue to focus on these areas, and are starting to see indications 
that this approach is working. For example, GPS IIIA and FAB-T recently 
completed independent technology assessments supporting their 
transition to Preliminary Design Phase.
    Ms. Tauscher. Mr. Payton and Mr. Large, the Pentagon's 2008 China 
military modernization report finds that China continues to develop a 
multi-dimensional counterspace program, ``China's space activities and 
capabilities, including ASAT programs, have significant implications 
for anti-access/area denial in Taiwan Strait contingencies and 
beyond.'' What implications do these developments have on our national 
security space posture? Do our military operational and contingency 
plans account for these potential space-based ``anti-access/area 
denial'' scenarios and their implications for surface, air, and other 
forces? Do military war games and exercises include such scenarios and 
are potential redundancies or alternative capabilities exercised?
    Secretary Payton. The number of space faring nations is growing and 
it should be noted China is not the only country to possess 
counterspace capabilities. We now operate in a contested space domain 
and, therefore, Space Situational Awareness and Space Protection are 
high priorities for National Security Space (NSS) systems. While some 
of our space capabilities are protected, we realize that we will likely 
face a wider range of threats to not only the satellites, but also 
their ground infrastructure and the links that control/connect these 
systems
    To address these issues, Air Force Space Command and NRO 
established a Space Protection Program (SPP) on 31 March 2008, to help 
make informed decisions about how to best preserve our space 
capabilities via comprehensive vulnerability assessments, protection 
strategies and concepts, protection technologies investment, and 
protection capstone requirements definition with roadmaps to define 
integration of protection capabilities into future systems. 
Additionally, we are increasing our efforts to develop Operationally 
Responsive Space (ORS) capabilities to allow us options in the future 
to quickly replace or augment existing satellite capabilities.
    Combatant Commands (COCOMs) consider space based ``anti-access/area 
denial'' scenarios and implications in their military deliberate/
contingency planning. COCOMs are required by their Unified Command Plan 
and other Strategic Guidance to consider employment in all domains (to 
include space) as they develop their operational concept(s).
    Multiple war games include exploration of concepts associated with 
space vulnerabilities. Examples include: Unified Engagement, the Air 
Force Future Capabilities Wargame, and the Schriever Wargames (held by 
Air Force Space Command, with Joint and Coalition partners). These war 
games specifically look at space vulnerabilities and impacts of denied 
capability. A common theme of all these activities is the absolute 
criticality of bolstering fidelity of space situational awareness.
    Mr. Everett. Mr. Payton and Mr. Large, the Pentagon's 2008 China 
military modernization report finds that China continues to develop a 
multi-dimensional counterspace program, ``China's space activities and 
capabilities, including ASAT programs, have significant implications 
for antiaccess/area denial in Taiwan Strait contingencies and beyond?'' 
What implications do these developments have on our national security 
space posture? Do our military operational and contingency plans 
account for these potential space-based ``anti-access/area denial'' 
scenarios and their implications for surface, air, and other forces? Do 
military wargames and exercises include such scenarios and are 
potential redundancies or alternative capabilities exercised?
    Mr. Large. Note: This response is broken into three parts below.
    Part 1: Space capabilities are vital to our national security. At 
the same time, potential adversaries continue to seek means to counter 
these advantages. Our space capabilities face a wide range of growing 
threats. The threat exists end-to-end and requires a new way of 
thinking and a new way of addressing the challenges facing the space 
community.
    The recommendations from on-going assessments are carefully 
factored into our space systems architecture planning and resulting 
investment priorities. Our investment strategy for space and space-
related activities is a balanced approach to achieving these 
capabilities. Our space control investment strategy, for example, 
balances the need for space situational awareness, protection of our 
space capabilities, and protection of terrestrial forces and the 
homeland from threats posed by adversarial use of space.
    Part 2: The complete protection picture requires that we take a 
careful look at the vulnerabilities on the ground as well as those in 
space; these vulnerabilities take many forms. The NRO is committed to 
protecting the information and assets that help us maintain our 
Nation's freedom and security from any threats. Unfortunately, the 
unclassified nature of this forum precludes me from discussing any 
specific details. Any further details must be discussed in a closed 
session.
    Part 3: Our military wargames and exercises have developed and 
matured over decades resulting in a robust capability that includes a 
wide variety of scenario. Any further detail must be discussed in a 
closed session.
    Mr. Everett. General Kehler and Mr. Large, I understand the Chinese 
ASAT test was a good example of how intelligence was 
``operationalized'' to provide near real-time support to military 
users. As threats to space increase, so too will the demand for greater 
space intelligence support and resources. How does the Department plan 
to address this requirement?
    Mr. Large. I respectfully defer to General Kehler.

                                  <all>

</pre></body></html>
